<html>
<title> - THE DEPARTMENT OF HOMELAND SECURITY STATE AND LOCAL FUSION CENTER PROGRAM:</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
   THE DEPARTMENT OF HOMELAND SECURITY STATE AND LOCAL FUSION CENTER 
                                PROGRAM:

=======================================================================

                                HEARING

                               before the

         SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND
                       TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 14, 2007

                               __________

                           Serial No. 110-15

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________




                   U.S. GOVERNMENT PRINTING OFFICE
35-274 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                        Todd Gee, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     JANE HARMAN, California, Chair

NORMAN D. DICKS, Washington          DAVID G. REICHERT, Washington
JAMES R. LANGEVIN, Rhode Island      CHRISTOPHER SHAYS, Connecticut
CHRISTOPHER P. CARNEY, Pennsylvania  CHARLES W. DENT, Pennsylvania
ED PERLMUTTER, Colorado              PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                 Thomas M. Finan, Director and Counsel

                        Brandon Declet, Counsel

                   Natalie Nixon, Deputy Chief Clerk

        Deron McElroy, Minority Senior Professional Staff Member

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Jane Harman, a Representative in Congress from the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment:
  Oral Statement.................................................     1
  Prepared Staement..............................................     3
The Honorable David G. Reichert, a Representative in Congress 
  from the State of Washington, and Ranking Member, Subcommittee 
  on Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................    14
The Honorable Charles W. Dent, a Representative in Congress from 
  the State of Pennsylvania......................................    18
The Honorable Norman D. Dicks, a Representative in Congress from 
  the State of Washington........................................    16

                               Witnesses
                                Panel I

Mr. Charles E. Allen, Chief Intelligence Officer, Office of 
  Intelligence and Analysis, Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     8
Mr. Daniel W. Sutherland, Officer for Civil Rights and Civil 
  Liberties, Department of Homeland Security:
  Oral Statement.................................................    20
  Prepared Statement.............................................    21
Mr. Hugo Teufel, Privacy Officer, Department of Homeland 
  Security:
  Oral Statement.................................................    24
  Prepared Statement.............................................    25

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi:
  Prepared Statement.............................................    31
Questions and Responses:
  Responses from Mr. Daniel W. Sutherland and Mr. Hugo Tuefel....    32


    ADVANCING INFORMATION SHARING WHILE SAFEGUARDING CIVIL LIBERTIES

                              ----------                              


                       Wednesday, March 14, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                  Subcommittee on Intelligence, Information
                    Sharing, and Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:40 p.m., in 
Room 311, Cannon House Office Building, Hon. Jane Harman 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Harman, Dicks, Reichert, and Dent.
    Ms. Harman. Good afternoon. The subcommittee will come to 
order. The subcommittee is meeting today to receive testimony 
on State and local fusion centers and on advancing information 
sharing while safeguarding civil liberties.
    Earlier this week, I led a member tour to two facilities in 
the D.C. area with critical Homeland Security missions--the 
National Counterterrorism Center and the Maryland Coordination 
and Analysis Center, or MCAC, in suburban Baltimore. I, 
frankly, saw some things that were inspirational and a few 
things that worried me. Representatives Perlmutter, Shays, 
Wolf, and I were particularly impressed by the NCTC, the 
Nation's fusion center for all terrorism-related information. 
It is clear that the NCTC has played a key role in improving 
information sharing across the Federal Government, and Admiral 
Scott Redd and his team are to be commended for their work 
there.
    I was disturbed, however, by what I learned about the 
emerging plans for the Interagency Threat Assessment and 
Coordination Group, or the ITACG, that our witness, Mr. Allen 
described in his testimony here last month. How this group, 
which is supposed to be creating unclassified products for 
State, local and tribal law enforcement officers across the 
country is going to be effective with only one local law 
enforcement person on staff is beyond me, and I am a bit 
disappointed that DHS, the agency that is supposed to be 
advocating for State and locals, has not fought harder to 
expand the number of nonFederal players at the ITACG table.
    The subcommittee may have to take a very close look at the 
ITACG in the current months, in the coming months, and I am 
certain that chairman would agree with me. It also is a good 
thing that to my right sits a former sheriff who I think would 
have some insights into the value of local participation at the 
Federal level and creating the products that are then 
distributed for local consumption.
    Our group also paid a visit to the Maryland Coordination 
and Analysis Center, the MCAC, in West Baltimore, as I 
mentioned. While the MCAC staffers were enthusiastic about 
their work and impressive, it is clear that the organization 
has no budget and is staffed mainly by detailees on loan from 
other agencies. They saw that as a positive because that meant 
that no one agency was in charge, which they felt would 
discourage other agencies from participating, but I saw that as 
a negative because, if any of those agencies faced budget 
squeezes, the easiest place to squeeze is to remove the 
detailee from the MCAC, and then there would be that enormous 
loss of competence. Although the MCAC is turning out impressive 
intelligence products on a daily basis, the facilities it 
occupies are, to say the least, modest. I was pleased to meet 
DHS' staffer, Charlie Allen's person, at the MCAC.
    But I left the MCAC with one main conclusion, and that is 
that all the DHS staff assistance in the world will not get the 
job done if fusion centers do not have adequate and sustained 
funding. Without money, they are going to disappear, and the 
DHS State and Local Fusion Center Program will not succeed.
    In addition to sustained funding, we need to 
institutionalize how we are doing intelligence at these 
facilities. That means that we should be encouraging not only 
intelligence fusion but also--and I know our witness agrees--
rigorous adoption of privacy and civil liberties' protections 
as part of the process. I often say that security and liberty 
are not a zero sum exercise.
    It is not that you get more of one and less of the other; 
it is that you get more of both or less of both, and so it is 
absolutely critical that we factor both in at the front end, 
and then we give confidence to those whose information we hope 
will be contributed to these fusion centers and whose 
information may be the critical piece that helps us unravel a 
plot before it is launched against America and American 
interests. Of course, we are pleased that Charlie Allen is back 
to address these concerns.
    Let me say, Charlie, that I have been through the 
President's requested budget numbers, and I, frankly, do not 
see how you can meet your goal of having your staff in up to 40 
fusion centers by the end of fiscal year 2008 without some very 
creative thinking and reprioritization on your part or without 
some additional help on our part. While we can not get into any 
classified figures and staffing levels here, I hope you will be 
able to shed light on where the President's budget request 
leaves you and on how you will go about meeting your fusion 
center targets, given the budget constraints you are facing.
    We also hope to hear more about the privacy and civil 
liberties education that you have mentioned in recent months 
before this subcommittee and before the Senate Select Committee 
on Intelligence.
    In that regard, I am pleased that we have with us today 
both the Department's Privacy Officer, Hugo Teufel, and its 
Civil Rights and Civil Liberties Officer, Daniel Sutherland.
    I note that this hearing comes on the heels of the National 
Fusion Center Conference in Florida last week where DHS, DOJ 
and the DNI and many State and local representatives and some 
of our staff got together to discuss the very issues on our 
agenda. I am happy that we all seem to be on the same page. Now 
it is time to move to the next chapter.
    Welcome again to you.

                 Prepared Statement of Hon. Jane Harman

    Earlier this week, I led a Member tour to two facilities in the DC 
area with critical homeland security missions--the National 
Counterterrorism Center and the Maryland Coordination and Analysis 
Center (MCAC) in suburban Baltimore.
    I frankly saw some things that were inspirational and some things 
that worried me tremendously.
    Representatives Perlmutter, Shays, Wolf, and I were particularly 
impressed by the NCTC, the nation's ``fusion center'' for all 
terrorism-related information. It's clear that that the NCTC has played 
a key role in improving information sharing across the Federal 
government, and Admiral Redd and his team are to be commended for their 
work there.
    I was disturbed, however, by what I learned about the emerging 
plans for the Interagency Threat Assessment and Coordination Group--the 
ITACG--that Mr. Allen described in his testimony here last month.
    How this group--which is supposed to be creating unclassified 
products for State, local, and tribal law enforcement officers across 
the country--is going to be effective with ONLY ONE local law 
enforcement person on staff is beyond me.
    And I'm disappointed that DHS--the agency that is supposed to be 
advocating for State and locals--has not fought harder to expand the 
number of non-Federal players at the ITACG table.
    The Subcommittee may have to take a very close look at the ITACG in 
the coming months, and I am certain the Chairman would agree with me.
    We also paid a visit to the Maryland Coordination and Analysis 
Center (MCAC)--Maryland's State fusion center.
    While the MCAC staffers were enthusiastic about their work and are 
undoubtedly working very hard, it's clear that the organization has no 
budget and is staffed mainly by detailees on loan from other agencies.
    And although the MCAC is turning out impressive intelligence 
products on a daily basis, the facilities it occupies are--to say the 
least--very modest.
    I was pleased to meet DHS' staffer at the MCAC, but I left the MCAC 
with one main conclusion: all the DHS staffing in the world won't make 
a bit of difference if fusion centers do not have adequate and 
sustained funding.
    Without money, they're going to disappear, and DHS' State and Local 
Fusion Center Program won't make a bit of difference.
    In addition to sustained funding, we need to institutionalize how 
we are doing intelligence at these facilities.
    That means that we should be encouraging not only intelligence 
fusion but also rigorous adoption of privacy and civil liberties 
protections as part of that process.
    We're pleased that Charlie Allen is back to address these concerns.
    I've been through the President?s requested budget numbers, 
Charlie, and I frankly don't see how you can meet your goal of having 
your staff in up to 40 fusion centers by the end of Fiscal Year 2008 
without some very creative thinking and re-prioritization on your part.
    While we can't get into any classified figures and staffing levels 
here, I hope you'll be able to shed some light on where the President's 
budget request leaves you, and how you will go about meeting your 
fusion center targets given the budget constraints you're facing.
    I also want to hear more about the privacy and civil liberties 
education that you have mentioned in recent months before this 
Subcommittee and the Senate Select Committee on Intelligence.
    In that regard, I'm pleased that we have with us today both the 
Department's Privacy Officer, Hugo Teufel (pronounced ``Too-fell''), 
and its Civil Rights and Civil Liberties Officer, Mr. Daniel 
Sutherland.
    I note that this hearing comes on the heels of the National Fusion 
Center Conference in Florida last week--where DHS, DOJ, the DNI, and 
many State and local representatives got together to discuss the very 
issues on our agenda today.
    I am happy that we all seem to be on the same page. Now it's time 
to move to the next chapter--specifically, to ensure that the funding 
and privacy and civil liberties ``know how'' that is necessary for 
fusion centers is authorized, appropriated, and put into action while 
safeguarding civil rights and civil liberties at the same time.
    Welcome again to you all.

    Ms. Harman. I will now recognize Sheriff Reichert, the 
ranking member of the subcommittee, for an opening statement.
    Mr. Reichert. Thank you, Madam Chair.
    I want to thank you for holding this important hearing. We 
are, I think, going to make a great team, and I am glad to see 
my good friend from Washington State, Norm, here with us today, 
so the three of us will get to inquire a little bit further 
after your testimony.
    Charlie, it is good to see you again, and I have only met 
you a few times, but I feel very comfortable with you, and it 
seems like we have known each other for quite a long time. You 
are very responsive and always available for questions and 
guidance, and we all appreciate that on this subcommittee. You 
know, the process is a little--it always kind of amuses me that 
politicians speak for a while and those are things, you know, 
that we need to get on the record, but we also want to hear 
from the witness, so I will ask you to indulge me just a little 
bit here while I take the opportunity to express some of my 
views for the record, and then we will get to the questioning.
    You know, I am a sheriff and a law enforcement officer at 
heart, and there are certain things that touch all of us. Now, 
as we look ahead to the future of this country and to the 
gathering of intelligence, the protection of private rights 
really is at the top of the list. For 33 years, that is what I 
did was protect people, protect communities, protect neighbors, 
and protect their rights. A substantial part of the intelligent 
portion of the authorization bill that we are talking about 
today will focus on the Department of Homeland Security's 
involvement in State and local fusion centers. DHS, the FBI and 
other Federal agencies are participating with local law 
enforcement in these fusion centers, and many questions are 
raised as local and Federal agencies partner, including: What 
role does the Federal Government have? Should there be more 
money allocated for the Federal role in these centers? Should 
personnel costs of local law enforcement be funded by the 
Federal Government since they are now participating in a so-
called ``nontraditional'' law enforcement role?
    As a former sheriff of a major county, I was required to 
reallocate personnel to participate in the joint analytical 
centers and the JTTS. In knowing the burden this places on 
local law enforcement, I believe the Federal Government has an 
obligation to partner with local authorities in the operation 
and funding of local fusion centers. I look forward to hearing 
from Mr. Allen on these issues today.
    Another pressing issue on many of our minds is civil rights 
and civil liberties, as I said, and is the main subject of our 
second panel. It is essential that we have the tools and the 
resources necessary to protect our Nation from future terrorist 
attacks. However, DHS and other agencies must have a healthy 
respect for privacy and other civil rights and civil liberties. 
We all hear complaints about potential violations in the 
newspapers, and some of these are real and concerning; some are 
speculative and lack supporting evidence, but what is important 
is the establishment of proper training methods and procedures 
for protecting privacy and civil liberties so that mistakes and 
abuses can be avoided, detected and corrected. In this respect, 
we must recognize the hard and often thankless work of the DHS 
Privacy Office and the DHS Civil Rights and Civil Liberties 
Office. Their sole mission is to minimize the Department's 
impact on people's privacy and rights.
    The DHS fusion center work has progressed over the last 
year on many fronts--from conceptual development, to deploying 
personnel, to the fusion centers. As part of this development, 
the Department issued fusion center guidelines and disseminated 
a fusion center grant planning tool. In the guidelines, DHS 
specifically focuses on privacy as a minimum consideration for 
interagency Memorandums of Understanding. DHS also adds as a 
key element of the guidelines adhering to privacy and civil 
liberty policies.
    As part of the fusion center planning tool, grant funding 
is allowed to establish a fusion center's critical baseline 
operations standards. One of these critical baseline standards 
is the identification and implementation of privacy and civil 
liberty protections. Every fusion center official that I have 
spoken with has acknowledged the importance of safeguarding 
civil liberties. I look forward to hearing from the Department 
of Homeland Security on what additional work is to be done to 
follow up with the fusion centers on these important priorities 
and in ensuring that employees receive appropriate training in 
privacy and civil liberty issues.
    Most recently, I visited the LA Fusion Center and had also 
visited Seattle's once again--as I am quite familiar with their 
joint analytical center--as they progress and move toward a 
fusion center, two very outstanding operations, and DHS' role 
in both of those fusion centers has been greatly appreciated.
    Madam Chair, I yield.
    Ms. Harman. I thank you for your comments, and I would note 
that other members of the subcommittee under our committee 
rules are encouraged to submit opening statements for the 
record, but we will now proceed directly to our first witness, 
Charlie Allen, who has been introduced numerous times by this 
committee and subcommittee, and so I just would point out he is 
the Department of Homeland Security's Chief Intelligence 
Officer with a long and distinguished background and a long and 
distinguished future.
    Please summarize your remarks, Mr. Allen, for the record, 
and we will go directly to questions.
    We will have a second panel today to discuss some of the 
issues that have been raised in the opening statements.

  STATEMENT OF CHARLES E. ALLEN, CHIEF INTELLIGENCE OFFICER, 
  OFFICE OF INGELLIGENCE AND ANALYSIS, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Allen. Thank you very much, Chairwoman, Harman, Ranking 
Member Reichert and Congressman Dicks.
    I really do welcome the opportunity to speak about our 
State and Local Fusion Center Program, and also how we work to 
protect civil rights and civil liberties. Also, it is a 
pleasure to be here to know that we have Mr. Hugo Teufel and 
Dan Sutherland. I appeared with Mr. Sutherland this morning 
over on the Senate Homeland Security Committee to talk about 
radicalization. I probably will omit comments about 
radicalization in my summary here, but I certainly can answer 
questions on that.
    I do want to speak to the Interagency Threat Assessment and 
Coordination Group, which, by the way, is now called the 
Federal Coordinating Group. We are beginning to move staff 
officers who form a core advance team into our location out at 
Liberty Crossing, as you indicated, and we are beginning to 
work with Federal and nonFederal partners to staff fully the 
group. It will be a real opportunity to have sustained, 
coordinated information sharing down at State and local levels, 
and we are working to include additional people from State and 
local governments.
    In fact, in the initial stand-up staff, I envision two or 
three officers, certainly. I do not know exactly what was said 
out at the NCTC, but we are still working to put together a 
concept of operations, and I want to assure you that there is 
going to be growth in State and local government 
representation.
    Let me touch on how the State and Local Fusion Center 
Program promotes information sharing, and it does this both 
horizontally between centers across the country and, of course, 
vertically between the Intelligence Community and the centers 
while working to safeguard civil liberties and privacy. 
Protecting privacy and civil liberties remains one of my top 
organizational priorities. I hold my office to the highest 
standards in these areas, and we reinforce these principles 
with all of our employees.
    In terms of incorporating privacy and civil liberties 
training into our fusion center program, the Department of 
Justice has made strong efforts to establish and provide 
important training and outreach programs to fusion center 
personnel. The Global Justice Fusion Center Guidelines, 
published by the Department of Justice, DHS and in 
participation with State and local governments, requires fusion 
centers to create policies that safeguard civil liberties. The 
National Fusion Center Conference last week, which you alluded 
to, brought subject matter experts from across the United 
States to discuss privacy and civil liberties, and there were 
two sessions, two breakout sessions, devoted to that that were 
well attended--I was very pleased to see that--and over 600 
people came to that conference.
    In addition, Federal Intelligence Officers assigned to the 
fusion centers have to comply with policy obligations regarding 
annual training requirements for protecting U.S. persons and 
are abiding by privacy guidelines of the information sharing 
environment, which, of course, you are well aware of and is 
managed by Ambassador Ted McNamara. We are working closely with 
various DHS and the external Civil Liberties and Privacy Office 
to ensure adequate oversight in these areas and to identify 
where additional training is needed.
    The last time I appeared before this subcommittee, you 
shared three priorities--information sharing with first 
presenters, the potential radicalization and reducing 
overclassification of intelligence. Let me just talk about 
information sharing with first presenters.
    The new DNI, Mike McConnell, recently set forth his vision 
for the Intelligence Community. He says we all have ``a 
responsibility to provide,'' not just to share. When I spoke to 
you last, I pledged that DHS intelligence would set the 
standard in this area. Our fusion center program underscores 
the importance I place in this area. To this end, the 
Department created a State and Local Fusion Center Program 
almost 9 months ago.
    This program, as you know, embeds DHS officers into fusion 
centers to share information, to collaborate on analysis and to 
identify information of intelligence value at a State and local 
level, and I believe, on issues of radicalization and also on 
all threats, there is a lot of information at that level as 
Ranking Member Reichert pointed out. My officers continue to 
work with the intelligence officers of DHS operating components 
and with the Intelligence Community to move tailored and timely 
intelligence out to the fusion centers. The result is better 
reporting and validating of actionable information both to our 
State and local partners and to the Intelligence Community. Our 
efforts to deploy intelligence analysts to the fusion centers 
around the country are progressing, and we will accelerate 
deployments if we can. We have officers in twelve fusion 
centers, and we do have an aggressive schedule to deploy up to 
35 officers by the end of fiscal year 2008, and that will be a 
challenge as you pointed out in your comments, and I will be 
happy to try to respond to questions.
    We also realize there is a critical need to provide the 
physical infrastructure and technology to share that 
information. At the secret level, my office is deploying a 
homeland security data network, HSDN, to the fusion centers. 
The Department is giving direct access, not just to my 
officers, but to State and local officials, just as if they 
were working at the Federal level. The establishment of a 
homeland security information portal and the deployment of HSDN 
are major steps to increasing connectivity between DHS 
intelligence and our State and local partners.
    We are beginning to realize the benefits of the 
strengthened relationships that the State and Local Fusion 
Center Program is creating, especially in creating new 
information into the centers. We recently assisted a West Coast 
fusion center in establishing solid information links to 
extremists operating outside of the United States by connecting 
informing from local investigators with senior intelligence 
analysts in my office.
    I share many of the concerns expressed by the committee at 
the last hearing about creating the sustainable fusion center 
capability at non Federal levels. You are absolutely right. 
There are going to be challenges, and these centers are in 
various stages of development. Some are immature, and some are 
like the JRIC in Norwalk near Los Angeles, which is very 
mature.
    I will defer my comments on radicalization but look forward 
to any questions. A number of the committee members remarked on 
the challenges that remain in being able to disseminate 
intelligence to those who need it, especially State and local 
partners, including a continuing proclivity toward 
overclassifying intelligence. I have fought against this 
tendency throughout my career while trying to ensure we protect 
sources and methods.
    As I noted previously, I look forward to working on this 
issue with the committee because my primary customers, whether 
in the State, the private sector or the Department, require 
intelligence shared with them at unclassified and at secret 
levels. If there is top secret level, we can sanitize it to 
secret if there are warning threat assessment necessities.
    In conclusion, the United States and its allies are engaged 
in a continual global struggle against a broad range of 
transnational threats. While the Department of Homeland 
Security intelligence is still maturing, we are undertaking 
vitally important new initiatives such as a State and Local 
Fusion Center Program to accomplish the Department's mission of 
preventing and mitigating those threats. While our fusion 
center initiatives are advancing, invaluable, seamless 
partnerships are fusing information intelligence. This will be 
done--I can assure you--while working hard to safeguard privacy 
and civil liberties. The success of these initiatives is based 
on DHS intelligence, setting the standards of inclusiveness, 
access, and collaboration with all of our partners.
    I look forward to your questions.
    Ms. Harman. Thank you, Mr. Allen.
    [The statement of Mr. Allen follows:]

                 Prepared Statement of Charles E. Allen

                              Introduction

    Chairwoman Harman, Ranking Member Reichert, and Members of the 
Subcommittee: Let me start by saying how pleased I am to be back before 
your Subcommittee--your continued focus on the critical capabilities 
that DHS Intelligence provides to the security of our homeland is 
further evidence of the commitment you have shown to our programs. I 
thank you greatly for your ongoing support.
    I would like to provide an update on our progress in establishing 
the Interagency Threat Assessment and Coordination Group, which is now 
called the Federal Coordinating Group. This group will facilitate the 
production of ``federal coordinated information,'' ensuring our non-
Federal partners have the validated, accurate, timely, and actionable 
information they need to protect against the threat of terrorism. I am 
pleased to announce that since I last spoke with you a month ago, we 
have begun moving staff officers, who form a core advance team, into 
our location in Liberty Crossing and are working with our Federal and 
non-Federal partners to fully staff the group. We have a substantial 
opportunity to construct lasting coordinated solutions by working 
together. The Federal Coordinating Group's advance team is gathering 
momentum; each day brings new substantive steps forward. I want to 
thank both the legislative and executive branches for helping to 
further the President's vision for information sharing.
    Today, I would first like to touch on the highlights of how the 
Department's State and Local Fusion Center (SLFC) program, and other 
key initiatives in our proposed FY 2008 budget, promote information 
sharing both horizontally between fusion centers and vertically to the 
Intelligence Community, all the while safeguarding civil liberties.

                      Civil Liberties and Privacy

    Protecting privacy and civil liberties remains one of my top 
organizational priorities as we work in our homeland security 
intelligence domain. I hold my Office to the highest standards in these 
areas and continually reinforce these principles with my senior 
managers and with all of our employees. I am also mandating that our 
new programs, such as the State and Local Fusion Center program, 
incorporate appropriate safeguards and oversight in these areas that 
intersect with homeland security.
    I echo the Secretary's vision that effective tools and measures, 
such as training, should be developed to safeguard privacy and civil 
liberties. In terms of incorporating privacy and civil liberties 
training into our fusion center program, the Department of Justice 
(DOJ) has made enormous efforts to establish and provide these very 
important training and outreach programs directed to fusion center 
personnel. The Global Justice Fusion Center Guidelines published by 
DHS, DOJ, and participating state and local governments require fusion 
centers to create policies to protect the civil liberties of our 
citizens. Fusion centers have to adhere to these guidelines in order to 
receive Federal grants. Also, all four regional fusion center 
conferences last year had plenary sessions addressing these issues. The 
National Fusion Center conference, held last week in Destin, Florida, 
brought subject matter experts from across the United States, including 
from the Department's Office for Civil Rights and Civil Liberties, and 
one of the issues discussed was privacy and civil liberties. In 
addition, all Federal intelligence officers assigned to fusion centers 
must comply with the policy obligations of their agencies concerning 
annual training requirements on the procedures that must be followed in 
handling U.S. Person information, as well as abiding by the privacy 
guidelines of the information sharing environment. To that end, we will 
continue to work closely, within the Department, with the Office of the 
General Counsel, the Office for Civil Rights and Civil Liberties, and 
the DHS Chief Privacy Officer, and, outside the Department, with the 
President's Privacy and Civil Liberties Oversight Board, the 
Information Sharing Environment Privacy Guidelines Committee, and other 
Federal partners to ensure adequate oversight in these areas and to 
identify where additional training opportunities exist, so that all 
fusion center personnel understand and abide by the appropriate 
guidelines.
    Madam Chairwoman, the last time I appeared before the Subcommittee, 
you shared your three priorities with me: information sharing with 
first preventers; the potential for radicalization within our society; 
and finding ways to reduce the overclassification of intelligence. As 
you know, I share your concern in these three areas. I will now 
describe how the SLFC program and other key initiatives in our proposed 
FY 2008 budget will emphasize those priorities.

               Information Sharing with First Preventers

    New Director of National Intelligence (DNI) Mike McConnell recently 
set forth his vision to the Intelligence Community for information 
sharing, stating that we all share a ``responsibility to provide.'' 
When I last spoke with you, I pledged that DHS Intelligence would set 
the standard in this area. Our fusion center program and other 
initiatives in our FY 2008 budget underscore the importance I place on 
supporting the programs and technology required to increase our 
contributions to information sharing, especially with first preventers.
    The Department created the State and Local Fusion Center program, 
part of the larger national network of fusion centers, nine months ago, 
working closely with both the DNI and DOJ. As you know, the program 
embeds DHS homeland security intelligence professionals into state and 
local fusion centers to share information, collaborate on analysis, and 
identify information of intelligence value. My officers continue to 
work with the intelligence officers of DHS operating components, with 
our partners at the FBI, and with the national Intelligence Community 
to move tailored, timely, and actionable intelligence out to the fusion 
centers. The result is better reporting and validating of actionable 
information both to our state and local partners and to the 
Intelligence Community.
    We are beginning to realize the benefits of the strengthened 
relationships the State and Local Fusion Center program is creating 
with our non-Federal partners. For example, we recently assisted a west 
coast fusion center in developing what at first appeared to be a 
tenuous connection with extremist activity. We were, however, able to 
establish a solid link to extremist activity operating outside of the 
United States by connecting information from local investigators with 
our senior DHS intelligence analysts.
    The State and Local Fusion Center program to deploy our 
intelligence analysts to fusion centers around the country is 
progressing well, although I will look for opportunities to accelerate 
the deployment of additional officers. So far, we have deployed 12 
officers to 12 fusion centers around the country; we are in the process 
of identifying the next five officers to deploy. We will continue our 
aggressive schedule to deploy at least 35 officers by the end of FY 
2008, and we are continuing to conduct assessments to determine which 
centers have the greatest need. Madam Chairwoman, I fully expect to 
meet that goal.
    We also realize there is a major need to provide the physical 
infrastructure and information management technology to share 
intelligence reporting and analytical products. At the controlled or 
sensitive but unclassified level, we have established a pilot program 
capability, under the Homeland Security Information Network (HSIN), 
that includes an intelligence portal where we comprehensively post both 
intelligence reporting and analytical products at the controlled 
unclassified level. We plan to expand this portal to allow for email 
exchange for states to collaborate while being protected from 
intrusion. At the SECRET level, my Office, in full coordination with 
the Department's Chief Information Officer, is deploying the Homeland 
Secure Data Network (HSDN) to the fusion centers. In an unprecedented 
move for the Federal government, the Department is giving state and 
local officials direct access, in their own facilities, to this network 
so they can receive reporting and email not only from the Department 
but also from the rest of the Intelligence Community. In other words, 
state and local officials will have access to and operate on the HSDN 
network, just like intelligence analysts at the Federal level. The 
establishment of the HSIN portal (controlled unclassified level) and 
the deployment of HSDN (SECRET level) are major steps forward in 
increasing the connectivity between DHS Intelligence and our partners 
at the state and local level.
    Using these mechanisms, we are piping information into the State 
and Local Fusion Centers at levels that before were not available to 
non-Federal partners. This information includes international events 
and incidents that are of concern from the standpoint of lessons 
learned and situational awareness. For example, we recently provided 
information and updates to fusion centers on the India train bombing, 
the Iraq chlorine attacks, and a white powder scare at Rolla, Missouri.
    I share many of the concerns expressed by the Subcommittee at my 
last hearing about creating a sustainable fusion center capability at 
the non-Federal level. DHS, in partnership with DOJ, is a major 
supporter of these fusion centers through our grants and accompanying 
technical assistance and training process, and in providing classified 
infrastructure, such as secure telephones and fax machines, HSDN 
terminals, and SECRET clearances to non-Federal homeland security 
professionals. At the same time, we must look to the future and, with 
our non-Federal partners, determine how to build both the Federal and 
non-Federal parts of the President's national integrated network of 
fusion centers in such a manner that this capability will remain 
robust, effective, and efficient throughout the protracted campaign 
against those who seek to harm the United States. In order to support 
the capability of the fusion centers, I am considering how the Federal 
government could use retired annuitants--retired intelligence officers 
who are experienced in intelligence analysis and production. We are 
reviewing this approach and will assess its feasibility.

                             Radicalization

    Chairwoman Harman, you recently remarked about the threat that 
homegrown radicalization poses to our communities. I sincerely share 
this concern, as does the Department and the broader Intelligence 
Community, especially the FBI. In fact, my office has followed suit 
with other Intelligence Community agencies that have realigned their 
analytical core to focus on radicalization. I am proud to convey that 
we are beginning to map out the phenomenon in its various domestic 
forms. This is part of my larger goal of developing indicators for 
radicalization, which will act as strategic warning when disseminated 
to state and local partners so they can determine the best ways to 
alleviate the threat. To assist with their efforts, the Radicalization 
and Engagement Working Group within DHS is developing a battery of 
programs and best practices to effectively counter radicalization, 
which will be available to our non-Federal partners.
    My Office's branch that analyzes radicalization has undertaken a 
study of each region in the United States and the threat radicalization 
poses. Our assessments of radicalization are being conducted in a 
phased approach, examining radicalization dynamics in key geographic 
regions throughout the country. Our first phase assessed radicalization 
in California and the New York/New Jersey area, and our second phase is 
assessing the Midwest and the National Capital Region.
    Each regional assessment begins by framing the issue particular to 
that state or region. First, we examine national-level intelligence 
reporting and open source information. We then take those findings and 
share them during face-to-face meetings with our Federal partners, 
including the FBI and the Federal Bureau of Prisons, as well as state 
and local law enforcement, intelligence, and homeland security 
professionals to gain their insights. These regional studies will form 
the basis of a national radicalization study that lays out the first 
ever baseline of this threat to homeland security.
    As you can see through our methodology, our approach to 
radicalization is indicative of my commitment to engage our 
intelligence colleagues in the state and local fusion centers as 
equals, as we address this particularly challenging issue. My 
radicalization team has been on the road many times in the past year, 
including attending the national conference in Florida I alluded to 
earlier, in order to meet with experts in your constituencies and 
solicit their involvement in our analytic efforts. I previously 
mentioned the results of the strong partnership with the state of 
California and similar relationships are supporting our work in all of 
our regional assessments.

                           Overclassification

    A number of the Committee's members have remarked on the challenges 
that remain in being able to disseminate intelligence to those who need 
it--especially state and local partners. Foremost among those 
challenges is a continuing proclivity toward overclassifying 
intelligence. As a long-standing senior officer of the Intelligence 
Community, I have fought against this tendency throughout my career 
while consistently ensuring that we protect our intelligence sources 
and methods to avoid harming our national security. As I noted 
previously, I look forward to working on this issue with the Committee 
in no small part because my primary customers, whether in the 
Department or in the states or private sector, require intelligence 
shared with them at the UNCLASSIFIED or at most SECRET levels. I will 
always ensure we share threat information with those consumers that 
require it--and my staff and I are working hard to institutionalize the 
DNI's principle of ``responsibility to provide'' in our own efforts to 
support this approach throughout the community. I believe the 
Information Sharing Environment Program Manager, in implementing the 
President's guidelines, is taking numerous steps forward in this area, 
and I will continue to support him.
    Within the Department, I have a strong production management team 
working to disseminate our finished intelligence at the lowest level 
possible to ensure wide accessibility by those who need it to secure 
our homeland. As I noted before, we made investments and will continue 
to invest in laying the connectivity at both the Controlled 
UNCLASSIFIED level through HSIN (and especially our HSIN-Intelligence 
portal, which has proven to be a success) and at the SECRET level 
through HSDN. Equally as important, I have instructed my analysts to 
``write for release'' at the lowest possible level and to work with our 
partners in the Intelligence Community to release information they are 
providing to levels accessible for our customers.
    Much work remains to be done--the President's guidelines lay out 
the roadmap for much of our efforts in this area. Within the 
Intelligence Community, DNI McConnell's principle of ``responsibility 
to provide'' further directs our approach. I will work closely with 
Mike McConnell and with you to ensure we are providing the right 
information to our customers on a timely basis to secure our homeland.
    While today I am focusing on the State and Local Fusion Center 
program and other key activities that intersect with the priorities you 
laid out for the Subcommittee, I want to emphasize that our FY 2008 
program provides capabilities in all of our mission areas. The program 
includes new initiatives such as our Domestic Open Source Intelligence 
Enterprise, our partnership with U.S. Citizenship and Immigration 
Services via the new National Immigration Information Sharing Office, 
and our work to support border security through the Integrated Border 
Intelligence Program. I ask for your continued support for the full 
range of capabilities and initiatives included in the FY 2008 budget--I 
will need this program fully funded in order to deliver on the pledges 
I made to you, the Secretary, the DNI, and to the country. Before I 
conclude, I would like to touch on a few final areas that are 
imperative to our success.

                                 Risks

    In my February 14 testimony, I shared with you three risks that are 
having deleterious effects on our ability to provide results: 
recruiting and retention; integration; and facilities. While I remain 
concerned about all three, today I want to focus on a key aspect of 
integration: the challenge of providing sound management of the 
Department's intelligence investments, including the SLFC program.
    As you know, we have seven components in the Department with 
intelligence programs, collectively called ``the DHS Intelligence 
Enterprise.'' We also have a host of places in the Department 
undertaking intelligence-related activities, some of which are 
programmatically positioned outside the intelligence components. The 
Secretary has charged me, as Chief Intelligence Officer, to advise him 
on the intelligence investments in the Department to ensure we are 
making effective and efficient investments in our intelligence 
capability.
    To this end, I am working aggressively to gauge accurately the 
cross-departmental component expenditures on intelligence. The first 
ever DHS Intelligence program reviews conducted last year were an 
important step toward gaining a baseline understanding of the 
intelligence component investments across the Department. These program 
reviews, as well as information gathered in partnership with the Chief 
Financial Officer during the Resource Allocation Plan process last 
year, provided a fair amount of visibility into the total departmental 
planned expenditures in the intelligence components. This year, I will 
again conduct intelligence program reviews and will again, in 
partnership with the Chief Financial Officer during the Resource 
Allocation Plan (RAP) process, gather information on planned 
investments in the intelligence components. The outcome of this year's 
activities will enable my staff to validate the results of the previous 
year's analysis. After this second set of program reviews and the FY 
2009 RAP process, I will be able to provide a more accurate estimate of 
the current and planned expenditures of the DHS Intelligence 
Enterprise.
    One of the challenges I am facing is that because the intelligence 
expenditures across the Department are not necessarily tracked at the 
program level--some operating agencies, for example, do not line item 
their intelligence component budgets--the final analysis will still 
only produce an estimate of investments. Similarly, because some 
agencies have intelligence resources that are organizationally distinct 
from their component intelligence program, these intelligence 
investments are difficult to estimate at the current time. As a result, 
I am still not able to provide the level of accuracy I prefer in my 
recommendations to the Secretary on current and proposed intelligence 
investments across the Department. I am working with the Secretary to 
improve our methodology toward this challenging and important issue, 
and I will continue to update the Subcommittee on my success in 
instilling an integrated approach to managing the Department's 
intelligence investments.

                               Conclusion

    The United States and its allies are engaged in a continuing, 
global struggle against a broad range of transnational threats. Our 
nation's communities face the threat of terrorism, of cross-border 
violence fomented by illicit narcotics trafficking and alien smuggling, 
and other threats apart from terrorism. While DHS Intelligence is a 
modestly-sized program, we are undertaking vitally important 
initiatives, such as the State and Local Fusion Center Program, to 
accomplish the Department's mission of preventing and mitigating these 
threats. The success of these initiatives is based on the degree to 
which DHS Intelligence sets the standard for inclusiveness, access, and 
collaboration with all of our partners.
    I can assure you that DHS Intelligence will be relentless in its 
pursuit of excellence in supporting the homeland security mission. With 
this budget, we will exceed past accomplishments and levels of customer 
service and collaboration--our ``responsibility to provide.'' At the 
same time, we will ensure that our intelligence programs protect the 
civil rights and civil liberties of all Americans. Our nation--our 
communities, our families, our way of life--deserves nothing less.

    Ms. Harman. I yield myself 5 minutes for questions.
    You just mentioned that there will be growth in State and 
local representation at the ITAG, which is now renamed or will 
be renamed the Federal Coordination Group.
    Did you say that? Am I correct?
    Mr. Allen. That is correct, the Federal Coordinating Group. 
The Information Sharing Environment Program Manager has decreed 
that is the name. At least, when I saw him on Monday, I think 
that is what we called it.
    Ms. Harman. Okay. Well, the name is less important than the 
function. We can agree on that.
    My question is what you mean by growth in State and local 
representation. Why can't the entity start with more than one 
law enforcement officer, which I think all of us here would 
believe is important.
    Mr. Allen. As we finish our concept of operations and as we 
work out the roles and responsibilities in that concept of 
operations, I think you will find that there will be more 
representatives than, say, one, and I do not know where the 
issue of ``one'' came from, but we are going to work with the 
chiefs of major cities' police. We are going to work with the 
global justice--I cannot remember the name--the Global Justice 
Committee, in order to ensure that we get the fullest input 
because we want the State and local representatives to 
represent all of the State and local fusion centers and local 
police departments at large, that we do not look each of the 
cities and other fusion centers and send in officers at the 
local level. We want people there who can help our Federal 
intelligence analysts understand what is important. Can it 
advise Federal analysts? You know, this foundation document on 
terrorism techniques, tactics and procedures, that is going to 
be very helpful at the local level, and so these people are 
going to be very crucial to our performance.
    Ms. Harman. Well, you are talking the talk, but I urge you 
to walk the walk. I would strongly recommend that more than one 
law enforcement officer be part of the initial group of people. 
Surely, there is more than one qualified law enforcement 
officer you could include, and I would hope they would be 
recommended by the State and local groups, themselves, not by 
you. I mean, that does compromise the idea, but also, if you 
call this the Federal Coordinating Group, I think that may send 
the wrong message, too. I think the point is to improve 
information sharing and to help get the perspective from State 
and locals on what products would be useful and what insights 
they have.
    So I do not want to name the thing, and I am not sure I 
recall what ``ITACG'' stood for, but the point is to take 
advantage of the talent pool out there, and I think you will 
agree with me, so I urge you to take advantage of more of the 
talent pool out there.
    Let me turn to a couple of other subjects that you raised. 
You were talking about these guidelines for civil liberties 
that the Justice Department has.
    My question is: Are these guidelines mandatory or 
voluntary?
    Mr. Allen. These guidelines are recommended by Justice, by 
our own department, working those guidelines out with State and 
local. We believe that State and local fusion centers will 
follow these guidelines because they understand it is very 
important that they meet high standards for the protection of 
civil liberties, and I think, you know, that would affect our 
opinion and our assessment because, before we put officers into 
any fusion center, I send at least three or four officers out, 
and they spend several days evaluating how that center is 
forming, and that is one of the places where they put a lot of 
emphasis.
    Ms. Harman. Right.
    Mr. Allen. They have to meet those standards.
    Ms. Harman. Well, I will just point out that H.R. 1, which 
has passed the House and has passed the Senate just this week 
in a different form--H.R. 1 does include a provision that would 
make those mandatory. Obviously, we share the goal of making 
sure that they are the right standards and that they are 
followed.
    Finally, let me ask you about budget. I understand that the 
budget is classified. I am not asking you to reveal any details 
of it, nor will we, but you said it would be a challenge to 
meet your goal of getting personnel into 40 fusion centers.
    Could an increase in budget be helpful in that regard?
    Mr. Allen. My view is, when we formed our program for 
fiscal year 2008 through 2012, I had just arrived. We had begun 
a number of new initiatives. We had not embedded anybody. We 
did not have a State and local program office. We now have 
that. As you know, we have started a number of other new 
initiatives within DHS intelligence. I think we are going to be 
very challenged. It may require me to reallocate dollars within 
my overall budget in order to meet some of these demands such 
as the State and Local Government Office. There are other 
initiatives of which your staff has been briefed that will 
require additional resources.
    Ms. Harman. Right. So I am not sure whether you said 
``yes'' or ``no,'' but let me just--my time has expired.
    Would additional resources be helpful?
    Mr. Allen. We always welcome additional resources.
    Ms. Harman. Thank you. Thank you. I appreciate that.
    I now yield 5 minutes for questions to the Ranking Member.
    Mr. Reichert. Thank you, Madam Chair. That is the same 
answer the sheriff would have given to the county council. You 
always can use more resources.
    As we look at the ITACG, and you look at bringing local law 
enforcement in, are you experiencing any resistance to 
volunteers or people who might be interested in that position?
    Mr. Allen. I do not think there is going to be any shortage 
of people wanting to come to Washington to work at Liberty 
Crossing to help in sanitizing, taking away sources and methods 
if need be and pushing the information out hopefully at 
official use or sensitive but unclassified or law enforcement 
sensitive levels down to there or, if need be, at secret 
levels. I think we are going to have a surfeit of people 
wanting to do this. I know that a number of cities have 
volunteered to send officers. Dave Cohen in New York has done 
so.
    Mr. Reichert. Good. I do agree that the opportunity would 
be one that a local law enforcement officer would love to 
participate in, but more toward the budget side in 
consideration for those other cities that might have a little 
bit smaller police force, these are positions that are 
volunteered to the Federal Government to serve in this capacity 
on a temporary basis; is that correct?
    Mr. Allen. That is correct.
    Mr. Reichert. Is there any Federal reimbursement at all to 
the local agency providing the body?
    Mr. Allen. We have not worked that out, but I certainly 
would think that that would be appropriate to reimburse, to pay 
for their moving expenditures and what have you, because it 
seems to me, if we are going to have a ``Federal Coordinating 
Group,'' we ought to reach out and give a helping hand to those 
coming from State and local governments.
    Mr. Reichert. Would the wages be a cost that might be a 
burden that the Federal Government carry or would that still 
apply to the local agency?
    Mr. Allen. We have to work that out. That is a policy 
decision yet to be reached, and we have to do that in 
cooperation with the DNI--with the Director of National 
Intelligence--as well as with the FBI.
    Mr. Reichert. I do know there has been some resistance to 
fund positions at fusion centers and joint analytical centers 
and JTTFs. Do you know if there has been any further discussion 
on whether or not monies could be found maybe within the grants 
and training?
    Mr. Allen. I think we can look at our grants and trainings 
because we know that grants and training funds can be used, for 
example, by the fusion centers to hire analysts. They can hire 
contractors to come in as analysts, and they actually can use 
some of the grant monies to actually train those analysts in 
analytic trade craft, so I will have to look into it, but there 
is flexibility there.
    Mr. Reichert. It has been one of the big issues that local 
law enforcement agencies in cities and counties across the 
country have expressed over and over again, you know, removing, 
as I said in my opening statement, resources from a gang unit, 
for example, to participate in a fusion center experience, 
where I think that their input and participation is absolutely 
vital for the success of that fusion center or analytical 
center.
    Just to touch on the privacy issue very quickly, to your 
knowledge, have there been any demonstrated privacy or civil 
liberties issues with any of the fusion centers?
    Mr. Allen. I cannot speak for all of the fusion centers, 
because there are areas where we really have not visited some 
of the fusion centers. We certainly have visited the State of 
Washington, as you know.
    Mr. Reichert. Yes.
    Mr. Allen. But where we have officers embedded, we have 
asked them to report any concerns they may have, and in the 
twelve fusion centers, we have received no reports of any 
concerns. That is certainly going to be part and parcel of 
sending officers to the fusion centers, all of the civil 
liberties and privacy rules and guidelines we expect those 
centers to follow.
    Mr. Reichert. One last question in my minute, remaining.
    Are you aware of the policy or the request that the Federal 
Government has made for phone records of American citizens? Are 
you familiar with that? It was an issue about 5 or 6 months ago 
or so.
    Mr. Allen. I am not familiar with any requests.
    The Department of Homeland Security, our Customs and Border 
Patrol and Transportation Security Administration and 
Immigration and Customs enforcement can collect information. In 
my own office, we do not collect information. We get the 
information that they provide, but all of the information is 
collected lawfully at ports of entry.
    Mr. Reichert. Okay. I yield.
    Ms. Harman. Thank you, Mr. Reichert.
    I would just note that there are programs. There is a 
program that involves the collection of some phone records, but 
it is not administered by the Department of Homeland Security; 
it is administered in other ways, and much about that program 
is classified, and certainly, I would hope that all of it 
complies fully with our law. Let me just leave it there.
    The Chair now recognizes for 5 minutes the gentleman from 
Washington State, Mr. Dicks.
    I would just note for the record that we do plan to come to 
Washington State for a field hearing. Both the ranking member 
and Mr. Dicks will be part of that hearing if we can find a 
mutually convenient date. We are also going to Los Angeles on 
April 4th and 5th to revisit the JRIC, the Joint Regional 
Intelligence Center, and hold a field hearing on radicalization 
and information sharing, and we will be meeting, Charlie, with 
your detailee out in Los Angeles at that time.
    Mr. Allen. Yes. The Secretary has asked me to try to attend 
that if I could.
    Ms. Harman. Wonderful. We will welcome you. We had thought 
you were unavailable, but that would be great.
    Mr. Allen. I will look at my schedule. I would like to make 
that.
    Ms. Harman. Terrific.
    Now, Mr. Dicks, you are recognized for 5 minutes.
    Mr. Dicks. I think this fusion center idea is a good idea. 
I mean I am very supportive of this, and I am glad that we have 
gotten started with twelve, and we are going to build this 
national network.
    Could you provide some specific examples of how fusion 
centers have improved homeland security and how your staffs 
present at fusion centers has made things better?
    Mr. Allen. Yes, sir.
    For example, when the President talked about some of the 
disrupted terrorist plots, the library tower in Los Angeles was 
mentioned as one plot where Khalid Sheik Mohammed had planned 
that. That was not pre cleared, necessarily, directly with the 
Mayor of Los Angeles. It was cleared at many levels below that, 
but our having an officer embedded there to talk quickly to all 
of the officials at the senior levels I think helped ease some 
of those pains.
    The point is we get every day, as you know, Congressman 
Dicks, threats. I got one last night which I called home on, 
and we are able then to--most of them are rumors or non 
credible. There are some that are credible. We are able to 
separate the wheat from the chaff, and having that officer 
there with a secure phone or a secure data network makes all of 
the difference in the world, and we have been able to do it 
with UNIRIC up in New York and other places.
    Mr. Dicks. And the way the thing is structured, you have 
these fusion centers out there in the local communities, and 
then you have your--what do you call it?
    Mr. Allen. We have the homeland security data network, 
which is a secret level that has all of the robustness of a 
Department of Defense supernet capability.
    Mr. Dicks. And then you have an office here in Washington, 
D.C.; is that correct?
    Mr. Allen. We are forming--yes, we have a State and local 
government program office that is now being properly classified 
and so forth at the various levels, and we are selecting a 
senior officer to head it.
    Mr. Dicks. And so the idea is for information to move both 
directions--out to the states and locals from here and then 
information from there coming back here?
    Mr. Allen. Absolutely. My Deputy Assistant Secretary for 
Intelligence this morning told me that her senior intelligence 
officers--and we have quite a number of them--are receiving 
every day calls from State fusion centers, not just where we 
have embedded officers but around the country. They have our 
number, and they are calling us if they have concerns.
    Mr. Dicks. And you said you have a data transmission system 
linked up, too, right?
    Mr. Allen. Absolutely, at all of the places except the 
upper New York regional intelligence center, and that will be 
in within a month. I discussed that yesterday to get that up to 
Colonel Bart Johnson.
    Mr. Dicks. And you have a plan to go to how many, 36?
    Mr. Allen. We want to put people out in 35 plus, and as the 
chairwoman said, we are going to be challenged to get that all 
out there by the end of fiscal year 2008.
    Mr. Dicks. That is your goal is to try to do it by 2008?
    Mr. Allen. Yes, sir.
    Mr. Dicks. And that is where the possibility of additional 
funding would maybe help to do that?
    Mr. Allen. We have undertaken a number of new initiatives 
that your staff has been briefed on, and we probably are going 
to have another new initiative coming on, perhaps on 
counterintelligence, that will require some money, which I am 
doing in conjunction with the Director of Security. So, yes, we 
are taking on some real initiatives, sir, that I think are 
needed.
    Mr. Dicks. Give me an example of where you would be 
concerned about civil liberties and, you know, how you would 
want to safeguard them.
    Mr. Allen. Hypothetically, I could say, having lived 
through a bit of Vietnam and knowing some of the abuses that 
occurred then where people went out and not only videotaped or 
filmed any war demonstrations but tried to get additional data 
on those people--if it is a peaceful protest where there is no 
reasonable belief under Executive Order 12333 that any of these 
people are planning any interference activity against the 
United States at any level, I always think that that would be 
an abuse. You do not do that. People have the right to protest.
    Mr. Dicks. We had some protest out in the State of 
Washington just last weekend at the Port of Tacoma regarding, 
you know, Stryker vehicles being sent to the war in Iraq. I 
mean, these are all going to be judgment calls that people are 
going to have to make, and that is why you are emphasizing the 
training aspect of this.
    Mr. Allen. If we do not have training, there will be 
abuses. If we do not have training at the local and State 
levels and they do not meet Federal standards and guidelines, I 
think there will be abuses, so I think we have to work 
rigorously at the training part.
    Mr. Dicks. Is there a set of required people in a fusion 
center or do we kind of make it up as we go in each area? I 
heard the idea of one law enforcement person, but I mean, who 
is supposed to be in the fusion center, and I know you are 
going to have your representative there, but who else would be 
in one of these existing centers?
    Mr. Allen. Some of these are collocated with the Joint 
Terrorism Task Force of the FBI. Some are located at Emergency 
Operations Centers. Some are located with State police. So we 
have a variety of people. They bring people--
    Mr. Dicks. So there is no set--
    Mr. Allen. No, because there is no one cookie cutter 
approach to State and local fusion centers. These have grown up 
as a result of 9/11, and the people at the local level are 
feeling that they had to have a more coordinated way to look at 
problems within their own communities.
    Mr. Dicks. Thank you.
    Thank you.
    Ms. Harman. Thank you, Mr. Dicks.
    The Chair now recognizes for 5 minutes the gentleman from 
Pennsylvania, Mr. Dent.
    Mr. Dent. Thanks, Madam Chairman.
    Nice to see you again, Mr. Allen. The question I have is 
the House Appropriations Committee is proposing an additional 
$35 million in the fiscal year 2007 supplemental for the 
expansion of the fusion center initiative.
    How is this funding level going to help you expand and 
strengthen the program, including privacy and civil liberties 
programs?
    Mr. Allen. Well, Congressman, as you know, that would be an 
action taken by House Appropriations.
    Mr. Dent. Correct.
    Mr. Allen. It is not part of the President's budget or the 
Secretary's budget that we submitted.
    As I said, we will be very challenged to meet some of our 
goals. We actually will be able to meet our goals, but we may 
not be able to fulfill all of our other initiatives. So, you 
know, it is your wisdom as to how to allocate any additional 
funds. We certainly are not going--I certainly cannot say 
truthfully to you that I am going to be very much squeezed, and 
I believe the State and local fusion center initiative is so 
important that I am willing to sacrifice other initiatives, if 
necessary, to meet the goal of embedding officers at 35 major 
fusion centers by the end of fiscal year 2008.
    Mr. Dent. Well, thank you for that answer.
    How would you work to increase public awareness through 
outreach between fusion center personnel and key community 
leaders to help create that trust between law enforcement and 
communities on this whole fusion center issue?
    Mr. Allen. Well, certainly at State and local fusion 
centers and with the major police departments where we also do 
a close liaison both in New York and out in Los Angeles, for 
example. Those centers and those police departments do have 
outreach programs to the local community. Part of our problem--
part of our challenge, of course, is to get our officers out 
and serving and explaining the kind of information we can 
provide to help keep the community safe. We have officers who 
are very active in some of the centers and who know all of the 
key players within the community, and the information we 
provide is threat warning, threat assessment and these more 
foundational documents, so I think we are building a center of 
trust down there. The State and local fusion centers have a 
prime responsibility for outreach to their local communities.
    Mr. Dent. Thank you, and thank you again for your 
extraordinary service.
    I yield back.
    Ms. Harman. Thank you, Mr. Dent.
    I am not sure whether members are interested in a second 
round of questions or not. Is anyone interested in asking some 
more questions?
    All right. Well then, we will need a few minutes to move to 
our second panel, but I just would like to say to you, Mr. 
Allen, that your careful answers to our budget questions are 
noted, but we believe that it would be helpful to give you some 
resources to make this fusion center concept a more effective 
one. Fusion centers are the way not only to share information 
vertically, which has been drawn out in this conversation, but 
also to share information horizontally at the local level, and 
that was something that the members who went to the MCAC in 
Baltimore learned on Monday, and I actually saw one of the 
products that is used, which was fascinating because it had 
information in this Baltimore document about some activity that 
could be happening in Los Angeles early next week, and that 
information was being shared with the Joint Regional 
Intelligence Center--the JRIC--of the fusion center in Los 
Angeles, and so, if we do this right, information will flow 
seamlessly, as we say, on a horizontal basis at the Federal 
level, but also seamlessly vertically and seamlessly among the 
State and local fusion centers, and that will maximize the 
chance, I hope, that we will connect the dots the next time 
before any attack on U.S. interests or U.S. persons. So this is 
very promising. We know that you are our partner in this, and 
all of us here are dedicated to making this succeed.
    Thank you for your testimony.
    Mr. Allen. Thank you, Madam Chairman.
    Ms. Harman. Mr. Reichert, do you have anything to add?
    Mr. Reichert. What the Chairwoman said. Thanks.
    Ms. Harman. This is a lovely exercise in bipartisanship. 
Thank you, Mr. Allen.
    Mr. Allen. I am very grateful.
    Ms. Harman. Are we ready? Okay. The subcommittee welcomes 
the second panel of witnesses.
    Our first witness, Daniel Sutherland, is the Department's 
Officer for Civil Rights and Civil Liberties. Mr. Sutherland 
provides advice to Secretary Chertoff and to the senior 
officers of the Department on a full range of civil rights and 
civil liberties issues. He has been a civil rights attorney 
throughout his legal career, serving 14 years with the Civil 
Rights Division of the Justice Department and nearly 2 years 
with the Office For Civil Rights at the U.S. Department of 
Education.
    Our second witness, Hugo Teufel is the Department's Privacy 
Officer. Mr. Teufel has primary responsibility for privacy 
policy at the Department that includes ensuring that the 
technologies used by the Department are privacy-compliant, 
conducting privacy impact assessments of proposed rules at the 
Department, assuring that the Department, itself, complies with 
the Privacy Act, and reporting to Congress on the activities of 
the Department that affect privacy.
    Before joining the Privacy Office, Mr. Teufel served as the 
first Associate General Counsel for General Law at the 
Department. He also previously served as the Associate 
Solicitor for General Law at the Department of the Interior.
    Ms. Harman. Without objection, the witnesses' full 
statements will be inserted in the record. I now ask each 
witness to summarize his statement for 5 minutes beginning with 
Mr. Sutherland.
    Welcome.

STATEMENT OF DANIEL W. SUTHERLAND, OFFICER FOR CIVIL RIGHTS AND 
        CIVIL LIBERTIES, DEPARTMENT OF HOMELAND SECURITY

    Mr. Sutherland. Thank you, Chairwoman Harman and Ranking 
Member Reichert. It is a pleasure to testify alongside Hugo 
Teufel, who has been a good colleague and friend for a number 
of years at the Department, and our offices work closely 
together, and we hope that that comes across today as we talk.
    I just wanted to describe at the beginning the purpose or 
mission of our particular office in accordance with 6 USC 345, 
the statute that creates our office. Our mission is to assist 
our colleagues in the Department of Homeland Security to secure 
our country while also preserving our freedoms and our way of 
life. In essence, we are providing guidance to our colleagues 
at the intersection of homeland security and civil rights and 
civil liberties. We, therefore, have the opportunity to work 
closely with every DHS component. I recently looked at the 
organization chart for the Department and noted that we have a 
project with essentially every box on the organization chart, 
and I am sure that that is the same with the Privacy Office.
    We also work with field offices around the country. We 
worked on nearly all aspects of the issues and the homeland 
security effort from the Hurricane Katrina recovery to the 
operation of Watch List to the immigration policy to the 
training of our workforce.
    We believe that our work is supported by our other 
colleagues in the Department because we try to provide 
constructive and proactive advice that allows them, our 
colleagues, to do their work in the most effective way 
possible. Our work has also been welcomed by our colleagues 
outside of government as demonstrated by our frequent 
collaborations with civil rights and civil liberties 
organizations. We play a unique role within the Department and, 
we hope, a valuable one, and we are going to continue to try to 
assist our colleagues as we sort through the issues again that 
are at the intersection of homeland security and civil rights 
and civil liberties.
    Because our office is relatively small, we realize that, to 
use a sports analogy, we have to ``punch above our weight,'' 
and one of the ways that we have decided to expand our 
influence is to work on training issues, and we have created a 
program we call Civil Liberties University, which is basically 
a program to provide high-quality training on a wide range of 
topics. Through Civil Liberties University, we have developed a 
video that emphasizes the elements of the National Detention 
Standards for protecting immigrant detainees. We have a multi-
hour instructional video on how to screen people with 
disabilities at airports.
    We have done training on Constitution Day to try and 
emphasize the value of the Constitution. We have also developed 
written materials on how to screen people who wear religious 
head coverings, for example, people who are Sikh or people who 
are Muslim. We have also developed materials on people who are 
Sikh who carry the kirpan--a ceremonial, religious dagger--and 
a number of other issues like that.
    We have just released an intensive training DVD on the 
issue of how to relate to Arab and Muslim travelers, travelers 
from the Arab and Muslim world or Arab Americans and Muslim 
Americans. It is a training that involves insights from four 
experts--one a Muslim woman who is on the National Security 
Council, one a Muslim Federal prosecutor, one a member of a 
civil rights organization that represents Arab and Muslim 
community interests, and one a prominent Islamic scholar. We 
have also developed training on the issue of racial profiling, 
racial or ethnic profiling. When can you use race or ethnicity 
in the course of law enforcement activities? It is a tutorial 
that our people take, and they have to pass certain tests as 
they go through the training.
    So the bottom line, I think, is that we have decided that 
training is a way that we can help make an impact on something 
that is really being welcomed by our colleagues across the 
Department. So, just for the better understanding of the role 
of the office and our training program, I just want to make a 
couple of comments about fusion centers.
    Just one week ago today, as you mentioned, we had the 
National Fusion Center Conference, and Secretary Chertoff at 
that conference said that the protection of civil liberties 
must be a priority, and he outlined the Department's vision in 
fusion centers, including the need to develop thoughtful tools 
and measures to safeguard privacy and civil liberties. So, 
again, I think we are all on the same page in terms of the 
priorities of these issues. Our office has worked on a number 
of issues regarding fusion centers. For example, just last week 
at the conference, we delivered or made available over 600 
copies of that Arab and Muslim culture video training to 
members of the fusion--to people involved in fusion centers 
around the country. We have also worked on different policy 
documents that have been developed over the past years.
    We know that fusion centers will face a number of issues 
with regard to civil rights and civil liberties. I have 
outlined a few of those concerns in my written statement, and I 
can certainly go over them during the question and answer 
session, but we just want to make clear that the Office of 
Civil Rights and Civil Liberties stands ready to assist our 
colleagues in fusion centers around the country as we have 
worked with our colleagues within our own department to try to 
help meet the challenges that they face at the intersection of 
civil rights and civil liberties in homeland security. I thank 
you for the opportunity to testify.
    Ms. Harman. Thank you very much.
    [The statement of Mr. Sutherland follows:]

               Prepared Statement of Daniel W. Sutherland

Introduction
    Chairwoman Harman, Ranking Member Reichert, and distinguished 
Members of the Subcommittee: Thank you for providing me the opportunity 
to testify today. The work undertaken in fusion centers across the 
country will be most successful when it is done in a way that respects 
America's rich Constitutional history. My colleagues in the Office for 
Civil Rights and Civil Liberties and I look forward to working with 
this Subcommittee to ensure that fusion centers reach that highest 
level of effectiveness.

Mission of the Office for Civil Rights and Civil Liberties
    In accordance with 6 U.S.C. Sec. 345, the mission of the Office for 
Civil Rights and Civil Liberties is to assist the dedicated men and 
women of the Department of Homeland Security to secure our country 
while preserving our freedoms and our way of life. We assist our 
colleagues in four ways:
        <bullet> We provide proactive advice on a wide range of issues, 
        helping the Department to shape policy in ways that are mindful 
        of civil rights and civil liberties;
        <bullet> We investigate and facilitate the resolution of 
        complaints filed by the public regarding Departmental policies 
        or actions taken by Departmental personnel;
        <bullet> We provide leadership to the Department's equal 
        employment opportunity programs, seeking to make this 
        Department the model Federal agency; and,
        <bullet> We serve as an information and communications channel 
        with the public regarding these issues.
    In essence, we provide advice to our colleagues on issues at the 
intersection of homeland security and civil rights and civil liberties. 
We therefore have the opportunity to work closely with every DHS 
component, both in Washington, D.C., and in many field offices across 
the country. Our Office has been involved in nearly all aspects of the 
critical issues facing the homeland security effort--from the Hurricane 
Katrina recovery, to the operation of watch lists, to immigration 
policy, to the training of our workforce. The Office's work has been 
supported by other DHS elements because we provide constructive advice 
that allows the men and women of the Department to fulfill their 
mission at the highest level of effectiveness. Our work has also been 
welcomed by our colleagues outside of government, as demonstrated by 
our frequent collaborations with leading civil rights, immigration, and 
community organizations. Our Office plays a unique role within DHS, 
and, we hope, a valuable one, and we will continue to assist our 
colleagues to tackle complex issues in innovative and constructive 
ways.

The Office for Civil Rights and Civil Liberties' Role in Training
    Because our Office is relatively small (approximately one-twentieth 
the size of the Department of Justice's Civil Rights Division, for sake 
of comparison), we realize that we must, to use a sports analogy, 
``punch above our weight.'' One of the ways we have expanded our 
influence is by creating ``Civil Liberties University,'' a program to 
provide high-quality training on a wide range of topics. Through Civil 
Liberties University, we have developed: a training video that 
emphasizes elements of the National Detention Standards, a multi-hour 
instructional video on how to screen people with disabilities at 
airports; and, training to commemorate Constitution Day in 2005 and 
2006. We have also developed educational materials on how to screen 
those who wear religious head coverings, and how to screen those of the 
Sikh faith who carry a kirpan, or ceremonial religious dagger. We have 
just released an intensive training DVD for DHS personnel who interact 
with Arab Americans, Muslim Americans, and people from the broader Arab 
and Muslim world. The training includes insights from four experts--an 
Assistant United States Attorney who is Muslim, a member of the 
National Security Council who is Muslim, a scholar of Islamic studies, 
and a civil rights attorney who advocates on issues of concern to Arab 
American and Muslim American communities. This training program has 
been applauded by communities who believe that they will be treated 
with more dignity and professionalism if front-line officers understand 
their cultures, traditions and values; and, by our colleagues in the 
Department who have expressed a desire for such training.
    Another training product we have developed deals with the issue of 
racial or ethnic profiling. To achieve President Bush's goal to 
eliminate racial profiling, the Department of Justice issued ``Guidance 
Regarding the Use of Race By Law Enforcement Agencies'' in 2003. 
Subsequently, then-DHS Secretary Ridge issued a memorandum underscoring 
DHS's commitment to race neutrality in all law enforcement activities. 
In the wake of the London bombings in July 2005, and the arrests in 
London this past August, Secretary Chertoff reiterated DHS's commitment 
to ensuring full implementation of the DOJ Guidance. To implement these 
commitments by the President and the Secretary, our Office has worked 
with the Federal Law Enforcement Training Center (FLETC) to restructure 
and strengthen the curriculum taught to law enforcement officers on 
this topic. Moreover, Civil Liberties University also has training on 
this topic: ``Guidance Regarding the Use of Race for Law Enforcement 
Officers,'' a tutorial on the DOJ Guidance and the DHS policy. These 
materials are now available to DHS law enforcement employees in CD-ROM 
or via on-line web-based training formats.

Civil Liberties and Fusion Center Information Sharing
    With a better understanding of the role of our Office and our 
training program, let me address the topic of fusion centers and 
information sharing. Just one week ago today, Secretary Chertoff told 
the National Fusion Center Conference that the protection of civil 
liberties must be a priority. He further outlined his vision for the 
Department's involvement in fusion centers including the need to 
develop thoughtful tools and measures to safeguard privacy and civil 
liberties.
    The Office for Civil Rights and Civil Liberties has been involved 
in shaping the work of the fusion centers already in existence. Just 
last week, our Office made available its training module on Arab and 
Muslim cultures to nearly 600 fusion center directors and local, state, 
tribal, and federal law enforcement officers within intelligence units 
attending the National Fusion Center Conference in Florida. Last year, 
our Office reviewed and concurred with the DHS Support Implementation 
Plan for State and Local Fusion Centers, which included an 
acknowledgement of DHS's express role in providing training and 
exercises for fusion centers through its Office of Intelligence and 
Analysis.
    Our office also plays a role in monitoring information management 
processes within DHS. In a recent memo to all DHS components, Secretary 
Chertoff assigned the Office for Civil Rights and Civil Liberties, the 
Office of General Counsel and the Privacy Office to work with DHS's new 
Information Sharing Governance Board to ensure that privacy, civil 
rights and civil liberties are fully protected in the Department's 
information-management processes.
    Fusion centers have been provided with some guidance on the 
protection of civil rights, civil liberties and, specifically, privacy 
rights. These guidelines have included policy templates for justice 
information systems, with important references to the Privacy Act, the 
Federal Retention Act, Executive Order 12333, and 28 CFR 23, that 
States can supplement with their own statutes. Going forward, DHS is 
working with other Federal agencies, on the Privacy Guidelines 
Committee, to establish a process for ensuring that the policies 
developed by fusion centers provide protections that are at least as 
comprehensive as those provided by the recently-issued and 
Presidentially approved Privacy Guidelines for the Information Sharing 
Environment.
    Nevertheless, fusion centers will continue to face a number of 
issues with regard to protection of civil rights and civil liberties. 
These issues include:
        <bullet> Many fusion centers support all-crimes missions and 
        share information related to concerns such as fraud, 
        racketeering, computer hacking, all hazards, disaster recovery 
        and other issues, not just terrorism information. The more 
        types of information shared, the greater the task for fusion 
        centers to ensure civil liberties and privacy rights are 
        upheld.
        <bullet> Likewise, the increasing demand for more actionable 
        information to be delivered to non-federal partners has the 
        potential to compound civil liberties concerns. Increased 
        discretionary authority may follow on the heels of demands for 
        such increased actionable information, thereby confusing all 
        parties as to who is responsible to preserve civil liberties 
        and what statutes--Federal, State and local--apply to the 
        information and actions taken.
    If sunset provisions for retention of information by a fusion 
center are absent, this can, depending upon what the information is 
used for and what security or updating procedures apply to it, become a 
privacy and civil liberties concern as ever more information is 
captured, shared and stored. Where provisions and rules for retention 
are in place, there is still risk that these provisions will not travel 
with the systems and people who use the data.
    As partnership with Federal authorities and non-federal fusion 
center participants increases, there is increasing risk that the 
balance between Federal and state governments is disturbed. The 
Constitution creates a delicate balance between Federal and state 
governments, which helps to prevent the accumulation of excessive power 
in either the States or our central government. As the Supreme Court 
has explained, ``The Constitutionally mandated balance of power between 
the States and the Federal Government was adopted by the Framers to 
ensure the protection of our fundamental liberties.'' Atascadero State 
Hospital v. Scanlon, 473 U.S. 234, 242 (1985).
    Finally, the accumulation of data leads to a substantial problem of 
misidentifications. We have observed this problem clearly in the 
context of travel screening, as many Americans have faced obstacles to 
flying as a result of misidentifications with names on watch lists. The 
Department of Homeland Security has acknowledged the issue from the 
beginning, and worked aggressively to solve it. Most recently, the 
Department has established an entirely new system to bring redress to 
travelers, known as DHS TRIP. Without such redress mechanisms, there 
are serious and unintended consequences to the collection of data.

    Fusion Center Training and Monitoring
    The Office for Civil Rights and Civil Liberties, within available 
resources, stands poised to work with fusion centers to address these 
and other challenges. While considering our success in training and our 
track record of close cooperation with every DHS component, we will 
build upon the framework established by the ISE Privacy Guidelines, and 
work with DHS's Privacy Office and I&A to protect and preserve privacy 
and civil liberties in the information sharing environment. Besides 
assisting these offices and the Department of Justice in monitoring 
fusion center utilization of Fair Information Practices, we plan to 
supplement I&A orientation training for DHS participants with civil 
rights and civil liberties instruction. Conclusion
    I thank you for inviting me to share our thoughts on fusion centers 
today and I look forward to working with this Subcommittee to address 
these issues.

    Ms. Harman. Now Mister--is it ``Too-fel'' or ``Toy-fel.''
    Mr. Teufel. It is ``Toy-fel,'' ma'am.
    Ms. Harman. ``Toy-fel.''
    Would you please summarize your statement in 5 minutes.

   STATEMENT OF HUGO TEUFEL, PRIVACY OFFICER, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Teufel. Absolutely. Madam Chair, Ranking Member 
Reichert and members of the subcommittee, it is an honor to 
testify before you here today. I am particularly pleased to be 
appearing with my good colleague, Dan Sutherland. As the 
subcommittee knows, our offices have a statutory responsibility 
to work together to address privacy and civil liberties issues 
in an integrated and comprehensive manner, and I want to assure 
you that we do.
    Because this is my first time appearing before the 
subcommittee--in fact, the first time that I have ever 
testified before any committee at either House--I wanted to 
mention a couple--
    Ms. Harman. It is a great honor, I should point out.
    Mr. Teufel. Yes, ma'am, indeed.
    I wanted to mention a couple more things.
    When I was Associate General Counsel for General Law, I was 
very lucky to have as two of my clients, my predecessor, Nuala 
O'Connor Kelly, and Dan Sutherland. So, in that role, I had the 
opportunity to have a very good understanding of what both 
offices do.
    Also, I would like to mention to you--I think it is 
particularly relevant given the Chair's earlier statements--
that previously, I served as Deputy Solicitor General for the 
State of Colorado, and unfortunately, I see that Representative 
Perlmutter is not here. My fellow Coloradoan, sadly, is not 
with us right now, but I did want to mention Colorado since I 
am here before you all.
    The subcommittee has just heard from Assistant Secretary 
Allen who expressed how important fusion centers are to 
critical Department missions. He also pointed to the 
Department's aggressive plan to increase the number of fusion 
centers across the Nation. As Chief Privacy Officer, I was 
gratified to hear the Assistant Secretary's commitment to 
establishing sound and effective privacy practices and policies 
from the very beginning.
    In the Privacy Office, we understand that this is more than 
a compliance issue. Sound and effective privacy policies 
enhance program performance while minimizing the cost to 
agencies and to the public. Like the Assistant Secretary, I 
believe the fusion center guidelines issued by the Global 
Information Sharing Initiative and published in cooperation 
between the Department of Justice and the Department of 
Homeland Security provide an invaluable resource for the 
principals to utilize when founding and operating a fusion 
center and will also be helpful to me, as a member of the 
Information Sharing Environment Privacy Guidelines Committee, 
in monitoring how privacy is safeguarded in this crucial aspect 
of the information sharing environment.
    The fusion center guidelines encourage consideration of 
privacy interests from the very moment of formation, a critical 
step. These guidelines recommend creating a privacy committee 
within the governing structure of the fusion center. The 
participants are encouraged to enter MOUs where privacy and 
related security protections and responsibilities are 
specifically called out. The guidelines promote meaningful and 
lawful privacy policies at the fusion centers and provide 
mechanisms ensuring that the centers adhere to these policies. 
Security is also addressed because it is well-understood in the 
privacy community that security concerns become privacy 
problems. These sections contain a number of useful links to 
templates and model policies, and I want to note that, 
importantly, they secure the homeland while protecting privacy.
    As with you, Madam chair, I do not believe that it is a 
zero sum game. We can do both, and we can succeed at both or we 
fail at both. I thank the subcommittee for this opportunity to 
testify. My office looks forward to working with Assistant 
Secretary Allen, Dan Sutherland and our fusion center partners 
to ensure that they maximize their effectiveness by 
establishing sound privacy practices.
    Thank you very much.
    [The statement of Mr. Teufel follows:]

                 Prepared Statement of Hugo Teufel, III

Introduction
    Chairman Harman, Ranking Member Reichert, and Members of the 
Subcommittee, it is an honor to testify before you today on advancing 
information sharing while safeguarding privacy within the Department of 
Homeland Security State and Local Fusion Center Program. I am 
particularly pleased to be appearing with my colleague, Dan Sutherland. 
As the Subcommittee knows, his office and mine have a statutory 
responsibility to work together to address privacy as well as civil 
liberties issues in an integrated and comprehensive manner.
    Because this is my first time appearing before the Subcommittee, I 
would like to introduce myself. I was appointed Chief Privacy Officer 
of the U.S. Department of Homeland Security by Secretary Michael 
Chertoff on July 23, 2006. In this capacity and pursuant to Section 222 
of the Homeland Security Act of 2002, 6 U.S.C. Sec. 142, my office has 
primary responsibility for privacy policy at the Department, to 
include: assuring that the technologies used by the Department to 
protect the United States sustain, and do not erode, privacy 
protections relating to the use, collection, and disclosure of personal 
information; assuring that the Department complies with fair 
information practices as set out in the Privacy Act of 1974; conducting 
privacy impact assessments of proposed rules at the Department; 
evaluating legislative and regulatory proposals involving collection, 
use, and disclosure of personal information by the Federal Government; 
and preparing an annual report to Congress on the activities of the 
Department that affect privacy.
    I also serve as the Department's Chief Freedom of Information Act 
(FOIA) Officer. In this role, I assure consistent and appropriate 
Department-wide statutory compliance and harmonized program and policy 
implementation. As you know, the three pillars of federal privacy law 
are the Privacy Act, the Freedom of Information Act, and the E-
Government Act.
    Prior to joining the Privacy Office, I served as the first 
Associate General Counsel for General Law at the Department of Homeland 
Security. Before joining the Department of Homeland Security, I served 
as the Associate Solicitor for General Law at the Department of the 
Interior. Therefore, I have had the honor of providing advice and 
counsel on freedom of information, privacy, and civil rights issues at 
two cabinet level agencies. As Associate General Counsel for General 
Law at DHS, Dan and my predecessor as Chief Privacy Officer, Nuala 
O'Connor Kelly, were my clients, which provided me with the opportunity 
to understand the issues both offices faced.
    There are two other things I should mention. As the Chief Privacy 
Officer, I currently hold a policy position in the Department, so I 
limit my practice of law to the weekends, when I serve as a judge 
advocate in the Army National Guard, within the Legal Support Office, 
attached to the District of Columbia Army National Guard. Additionally, 
in my spare time I have been working on a master's degree in National 
Security Studies through the Naval War College. My studies have aided 
me in understanding decision-making in the areas of homeland defense 
and security.

The Privacy Office
    I am determined to continue the process of ``operationalizing 
privacy'' within the Department and its programs, a phrase described to 
this Subcommittee by Maureen Cooney, the Acting Chief Privacy Officer 
before my tenure.
    To achieve this, the office forms close relationships with system 
owners and program managers, along with IT security officials, and 
senior DHS officials. By placing privacy into the program development 
and decision-making processes of the Department, we can ensure that DHS 
not only meets its legal requirements, but stands as a model of how 
privacy can complement and work with law enforcement and intelligence 
agencies.
    As part of our ongoing operations, our Compliance group works with 
IT security, budgeting, procurement, and financial professionals 
Department-wide to complete privacy impact assessments, system of 
records notices, and other privacy documentation relevant to and 
required for DHS systems and programs.
    Our Office also leverages the considerable experience of our 
International group to develop and maintain DHS's privacy policy and 
practices on issues concerning our foreign partners and allies. These 
issues range from international compliance measures to data sharing 
initiatives as well as full treaty negotiation and review.

Fusion Centers
    State and local authorities have created 42 fusion centers around 
the country. Fusion centers blend relevant law enforcement and 
intelligence information analysis and coordinate security measures in 
order to reduce threats in local communities. They also represent a 
method for providing first responders with ``actionable intelligence''; 
that is information useful and relevant to the day-to-day mission of 
state and local law enforcement personnel. As of the end of FY 06, the 
Department of Homeland Security has provided more than $380 million to 
state and local governments in support of these centers.
    Intelligence Officers from the Department of Homeland Security 
Office of Intelligence and Analysis currently work side by side with 
state and local authorities at twelve fusion centers across the 
country.
    This number is about to grow. On September 12, 2006, Secretary 
Chertoff told the Senate Committee on Homeland Security and Government 
Affairs that, ``Our goal is to have intelligence and operations 
personnel at every state and major metropolitan fusion center in the 
United States, sitting in the same room, sharing and analyzing 
information and intelligence in real time,'' with a ``two-way flow [of 
information], with every level of government pooling intelligence.''
    This ramping up of fusion centers and the two-way information flow 
to accompany it will require additional effort and vigilance to ensure 
privacy rights are protected. As the DHS Chief Privacy Officer, I will 
strive to make sure privacy concerns are addressed at the beginning of 
the process, before information is collected and shared. This process 
begins, in my opinion, with a proposed fusion center utilizing the 
Department's fusion center guidelines.

Privacy and the Fusion Center Guidelines
    The Global Justice Information Sharing Initiative, the Department 
of Homeland Security, and the Department of Justice collaboratively 
developed and in August 2006 issued ``Fusion Center Guidelines: 
Developing and Sharing Information in a New Era.'' These guidelines are 
intended to ensure that fusion centers are established and operated 
consistently, resulting in enhanced coordination, strengthened 
partnerships, and improved crime-fighting and anti-terrorism 
capabilities. The document offers a comprehensive guide to the 
development and operation of fusion centers, as well as provides useful 
resources and document templates to facilitate implementation. I 
believe this is an excellent first step in ensuring fusion centers 
integrate privacy protection into their actions.
    Implementing these fusion center guidelines provides an important 
first step in applying appropriate privacy protections as required 
under the ``Guidelines to Ensure that the Information Privacy and other 
Legal Rights of Americans are Protected in Development and use of the 
Information Sharing Environment''--otherwise known as the ISE Privacy 
Guidelines--and is a major focus of the ISE Privacy Guidelines 
Committee (ISE/PGC), of which I am a member. In fact, the ISE/PGC 
already formed a working group to deal specifically with privacy issues 
surrounding the exchange of data with state and local entities. Since 
the fusion centers will be the primary mechanism for federal government 
information sharing with our state, local and private sector partners, 
the successful implementation of appropriate privacy policies will be a 
critical part of ensuring the success of the Information Sharing 
Environment.
    Privacy concerns and methods of addressing them appear throughout 
the documents. Fusion Center Guideline 3, for instance, urges the 
inclusion of a privacy committee in the fusion center governance 
structure. The purpose of this privacy committee will be to ``liaise 
with community privacy advocacy groups to ensure civil rights and 
privacy protection.'' Fusion center governing bodies, moreover, are 
encouraged in this Guideline to collaborate with the Department of 
Homeland Security, including the Privacy Office, to establish their 
operating processes.
    Fusion Center Guideline 5 urges fusion center partners to utilize 
memorandums of understanding (MOUs) to govern interactions between the 
participants, and commit the parties to the principles and policies of 
the fusion center. The guideline advises that adherence to privacy and 
security principles should be specifically addressed within all such 
MOUs. Where DHS shares personally identifiable information with fusion 
center partners, the Privacy Office will review and approve a Privacy 
Impact Assessment that covers the privacy and security controls that 
the MOU must address.
    Fusion Center Guideline 8 is dedicated to promoting meaningful and 
lawful privacy policies at the fusion centers, and to providing 
mechanisms ensuring that the centers adhere to these policies. This 
begins with consideration of the Fair Information Principles which are 
the worldwide baseline for privacy protection: Transparency, Individual 
Participation, Purpose Specification, Minimization, Use Limitation, 
Data Quality and Integrity, Security, and Accountability and Auditing--
consideration of which are also, appropriately, required by the ISE 
privacy guidelines. The Fusion Center Guidelines provide a useful list 
of complementary elements for the drafters of the privacy policy, 
including:
        1. Add introductory language that clearly states the privacy 
        practices of the center;
        2. Describe the information collected and how the information 
        is stored;
        3. Establish a common lexicon of terms for dealing with role-
        based access;
        4. Define and publish how the information will be used;
        5. Draft a clear, prominent, and understandable policy;
        6. Display the privacy policy for both center personnel and 
        customers;
        7. Ensure that all other policies and internal controls are 
        consistent with the privacy policy;
        8. Establish a business practice of notifying government 
        agencies of suspected inaccurate data;
        9. Adhere to applicable state and federal constitutional and 
        statutory civil rights provisions;
        10. Partner with training centers on privacy protection 
        requirements and conduct periodic privacy security audits;
        11. Consult with the privacy committee (established pursuant to 
        Guideline 3) to ensure that citizens' privacy and civil rights 
        are protected;
        12. When utilizing commercially available databases, ensure 
        that usage is for official business and the information is not 
        commingled with private sector data. To prevent public records 
        disclosure, risk and vulnerability assessments should not be 
        stored with publicly available data; and
        13. Determine if there are security breach notification laws 
        within the jurisdiction and follow those laws, if applicable.
    Having defined the key elements of a sound privacy policy, the rest 
of Guideline 8 focuses on the steps the leaders of the fusion center 
should take to ensure the policy is followed. These steps include such 
prudent steps as ensuring adequate training and information privacy 
awareness and establishing a policy for tracking and reviewing privacy 
complaints and concerns. Guideline 8 also recommends seeking legal 
counsel. I would only add to this list that participants should also 
consult frequently with their entity's Chief Privacy Officer.
    The supplemental materials available on the Guidelines' companion 
CD are particularly useful. They include the Justice Department's 
Privacy and Civil Rights Policy Templates for Justice Information 
Systems, Privacy Policy Templates, and a Privacy Policy Development 
Guide.
    The Privacy Policy Development Guide recommends that in addition to 
the development of a comprehensive privacy policy, fusion centers 
complete privacy impact assessments to understand the effect that 
technology and operation choices have on privacy. The Privacy Office 
developed a detailed methodology to analyze the impact any new or 
update system will have on an individual's personal information, 
including reviewing:
        <bullet> What information is to be collected;
        <bullet> How will be it stored, managed, and used;
        <bullet> What means of individual access is available;
        <bullet> What means of redress for informational errors has 
        been provided; and
        <bullet> What security is in place to protect the information.
    The Privacy Office's official guidance on the writing of privacy 
impact assessments to shepherd the different system programs safely 
through the privacy protection process serves as an appropriate 
addendum to the Fusion Center Guidelines.
    Furthermore, it is often said that ``security concerns become 
privacy problems.'' Privacy protection principles are only meaningful 
if they exist in tandem with a robust security regime. Fusion Center 
Guideline 9 provides a framework for ensuring adequate security 
measures are in place. This includes, of course, security for 
facilities, data, and personnel. A fusion center's Privacy Officer and 
Civil Rights Officer must have close working relationships with its 
Chief Information Officer as well as the Chief Security Officer.
    As a whole, I believe these guidelines provide an invaluable 
resource for the principals to utilize when founding and operating a 
fusion center, and will also be helpful to me, as a member of the ISE 
Privacy Guidelines Committee, in monitoring how privacy is safeguarded 
in this crucial aspect of the Information Sharing Environment. The 
Fusion Center Guidelines encourage consideration of privacy interests 
from the very moment of formation--a critical step.

Privacy Office's Review of the MATRIX Program
    Information sharing, of course, is at the heart of fusion center 
activities. The Privacy Office has had an opportunity to review a pilot 
information sharing program among a number of state governments called 
MATRIX, the Multistate Anti-Terrorism Information Exchange. The program 
accessed only state-owned or publicly available records that were 
already available to law enforcement without a subpoena or court order. 
DHS became involved in the pilot in July 2003, when (what is now) 
Grants and Training entered a Cooperative Agreement with a non-profit 
entity to administer the project. The funding was intended to assist 
with testing the system for data analysis and integration of terrorist 
threats and other intelligence information, as well as to provide 
funding to establish user accounts for MATRIX participants and to 
create a secure website for each participating state to facilitate 
information sharing.
    The Privacy Office reviewed the program following a request by the 
American Civil Liberties Union and published its findings in a report 
entitled, ``Matrix Report--DHS Privacy Office Report to the Public 
Concerning the Multistate Anti-Terrorism Information Exchange (MATRIX) 
Pilot Project,'' which is available on the Privacy Office website.
    We found that the project lacked a privacy policy that clearly 
articulated the project's purpose, how it would use personal 
information, the types of information covered, and the security and 
auditing safeguards governing the project. The MATRIX Board of 
Directors did not issue a privacy policy of any kind until four months 
after the pilot began. It was nearly a year before the Board approved 
an audit requirement and then it merely called for a self audit.
    The Privacy Office believes, however, that the MATRIX pilot project 
was undermined, and ultimately halted, in large part because it did not 
have a comprehensive privacy policy from the outset to provide 
transparency about the project's purpose and practices and protect 
against mission creep or abuse. The recommendations of the Privacy 
Office rest on the basic premise that information programs such as the 
MATRIX pilot project can protect privacy, while securing the homeland. 
Building privacy into the architecture of an information program can 
help ensure that such programs achieve their objectives while at the 
same time safeguarding individual privacy. This is more than just a 
compliance issue. The Privacy Office understands that sound and 
effective privacy practices maximize the utility of the information 
collected, processed, and maintained by DHS to facilitate and improve 
performance, while minimizing the cost to agencies and to the public.
    I note that the MATRIX program was initiated and failed before the 
fusion center guidelines were issued. If the MATRIX participants had 
had the benefit of these guidelines and followed their plan for 
implementation and the creation of a comprehensive privacy policy, I am 
confident that the program would have stood a much better chance of 
success. Looking forward, I hope parties entering future information 
sharing agreements, especially in support of fusion centers, read the 
MATRIX report for its lessons learned and then review and adopt the 
Fusion Center Guidelines. And of course they should consult their 
Privacy Office.Conclusion

Conclusion
    I thank the Subcommittee for this opportunity to testify. My office 
looks forward to working with the Department and our fusion center 
partners to ensure they maximize their effectiveness by establishing 
sound privacy practices.
    I look forward to hearing my colleagues' testimony and to answering 
your questions.

    Ms. Harman. Thank you for your testimony within the time 
limit. A vote has been called. I am not sure if it is the last 
vote, but we have about 10 good minutes. It is not the last 
vote. So I think we will try to conclude this hearing before we 
go to vote. I think that is fairer to you and would work 
better.
    Ms. Harman. So I am going to just make a comment as to one 
question, and take less than 5 minutes and then yield to the 
other two that are here. My comment is that you have revealed a 
closely guarded secret. Folks out in the countryside don't 
realize that you are there and what you are doing, and I would 
urge you to tell your story. In fact, I would urge committee 
staff to figure out the way we are going to tell this story in 
Los Angeles on April 5 because it is very important that the 
neighborhoods which these fusion centers serve understand that 
this training is available and conducted and that the policies 
that these fusion centers are following hopefully comply with 
these Federal policies. And so my one question is, maybe Mr. 
Sutherland for you if you could answer it in 30 seconds, and 
then I will go to Mr. Reichert. Can you assure me that people 
who are coming now to the JRIC, the Joint Regional Intelligence 
Center, in Los Angles, receive this training, watch your video, 
read your materials and practice these guidelines that you have 
developed?
    Mr. Sutherland. Chairwoman, I could not assure you that any 
particular employees of any particular fusion center have seen 
this video or seen these materials that I referenced. We need 
to do a better job in that regard.
    Ms. Harman. Well, then, let me just conclude by urging you 
to do a better job in this regard and find the ways to make 
these programs known by those who work in these fusion centers. 
We are, by legislation, considering making some of this 
mandatory if, as Charlie Allen says, everyone wants to follow 
these practices, and that can be done even before they are 
mandatory. Let's do that. Would you commit to working on that 
problem?
    Mr. Sutherland. Absolutely. We will do it, and we will 
follow up with you.
    Mr. Dicks. If I could just add--
    Ms. Harman. Yes. I will yield to you.
    Mr. Dicks. Do you have a plan to do this?
    Mr. Sutherland. Not specifically with regard to fusion 
centers. We have, for example, the training that I mentioned on 
Arab Muslim values and culture, we have just had that out for a 
month, and 4,000 copies are gone. We have a tremendous amount 
of enthusiasm. So we are confident that when we make this 
available to individuals in fusion centers, that they will take 
it. We have distributed over 600 at the training last week, but 
I think we can definitely follow up to contact them directly 
and say, here is what we have available.
    Ms. Harman. Well, I think Mr. Dicks raises exactly the 
right point. We are all late in this, our understanding of 
Muslim and Sikh and other cultures is lagging in America. And 
to make policies to protect our homeland work, we obviously 
have to have better understanding and hopefully gain the trust 
of law<dagger>abiding citizens from all these communities who 
are the first to know whether something is wrong in their 
neighborhoods, and we want them to tell us if something is 
wrong. So let us urge you to think through quickly how this 
information can go out to fusion center personnel, what steps 
we might have to take to help you get there. Obviously, we are 
talking about additional budget resources. But let me put that 
out and follow up with you within a week or so to see where we 
are, and maybe you can report back on April 5 or someone can in 
Los Angeles. Is that reasonable?
    Mr. Sutherland. Yes, ma'am.
    Ms. Harman. Thank you. Let me yield a few minutes to Mr. 
Reichert and then to Mr. Dicks.
    Mr. Reichert. Thank you, Madam Chair. And I think you make 
an excellent point and follow it up by Mr. Dicks. And as you 
were both speaking, I jotted down some quick notes and it just 
so happens that my questions for both of you are along the same 
lines as we have just experienced here. So you, Mr. Sutherland, 
mentioned that the Secretary made a comment at the fusion 
center conference that there are tools and measures in place to 
safeguard--they wanted to make sure there were tools and 
measures in place to safeguard privacy and civil liberties, and 
certainly education has got to be at the top of the list. And 
then, Mr. Teufel, you mentioned the assistant secretary, his 
comment was sound and effective policies. What tools and 
measures or policies are you talking about? Just kind of bullet 
point them real quick for me, please.
    Mr. Teufel. Well, I would call your attention to the 
guidelines and it is--I am going to get this wrong--the fusion 
center guidelines. But Section 8, title 8, deals with the 
privacy guidelines. Now, it is true that under the guidelines, 
these privacy requirements are not mandatory, but they are 
recommended. It is my understanding in talking with the folks 
over at INA that INA looks to make sure that the privacy 
guidelines are implemented before they send folks out. And I 
want to stress that these privacy guidelines contained in the 
fusion center guidelines are outstanding, and key to them--at 
the heart of them are the fair information practice principles 
that undergird the Privacy Act of 1974, the eight fair 
information practice principles. And if you adhere to those 
principles, you can't go wrong when it comes--
    Ms. Harman. Mr. Reichert, would you yield to me just for a 
request of the witness? Would you provide that material for us, 
please? I am assuming it is unclassified, but whatever form it 
is in, we would like to receive it.
    Mr. Teufel. Absolutely, ma'am. We pulled it down off the 
Internet yesterday. It is publicly available, and we can 
certainly get to you.
    Ms. Harman. Mr. Reichert. I would point out we are at about 
8 minutes, so hopefully we can get to Mr. Dicks.
    Mr. Reichert. The tools and measures are the same as the 
policies? We are talking about the same thing?
    Mr. Sutherland. Yes, Congressman. I think one thing that is 
important when you look at the guidelines is that the 
guidelines, most of the discussion in this context deals with 
the protection of data which falls within Mr. Teufel's area. 
The sorts of training that I was talking about would fall more 
in the area of the protection of civil rights or a better 
understanding of what to do with data, and that is I think 
where we can really add value here.
    Ms. Harman. Mr. Dicks you have 2 minutes for questions.
    Mr. Dicks. So you have ways of--when people gather 
information, which is what this is all about, you have got ways 
of protecting the databases and protecting that information. Is 
that correct? Or is that something you will have to work on and 
develop in each one of these fusion centers?
    Mr. Teufel. Well, every fusion center is different. They 
are established by State and local governmental entities. The 
Department of Homeland Security and the Department of Justice 
participate alongside as partners. If I understand--
    Mr. Dicks. Let's say they get--you know, we are sending top 
secret information back and forth. I mean, they have got to 
have some way to protect that information at the, say in the 
Los Angeles center or the Seattle center.
    Mr. Teufel. Absolutely, sir. And when it comes to the 
transmission of classified information, there are protocols in 
place and standards that have to be met. I think it is 
important to note that you can have all the great gear in the 
world, all the best technology in the world, and you can still 
fail because as long as there are human beings involved, human 
beings will make mistakes. And so the answer is always 
training, training, training, training, so that people do the 
right thing.
    Mr. Dicks. And good judgment.
    Mr. Teufel. Yes, absolutely.
    Mr. Dicks. And knowing the rules.
    Mr. Teufel. Hopefully, we don't hire people that don't have 
good judgment or who don't know the rules.
    Mr. Dicks. One point, as we walk out the door, it sounds 
like we are having--a lot of people are coming to the fusion 
center, and each situation is different. So you know, is there 
a way--are these people cleared? Do we look into their records? 
Is there a clearance process of sorts before these people 
become part of the fusion center?
    Mr. Teufel. That is my understanding, sir. And as I also 
understand, INA looks at the people and looks at the centers 
before they get involved, sir.
    Ms. Harman. Let me thank both of our witnesses. As Mr. 
Allen said about fusion centers, one size does not fit all, but 
what has to fit all is that civil liberties and privacy 
principles are observed all the time. No exceptions. And it is 
going to be hard to get this right, training training, 
training, is clearly a big part of the answer, and I just want 
to commend both of you for what appears to me to be excellent 
work at the Department of Homeland Security. The hearing stands 
adjourned.
    [Whereupon, at 4:42 p.m., the subcommittee was adjourned.]

             Prepared Statement of Hon. Bennie G. Thompson

    Thank you, Madame Chair, and I join you in welcoming Mr. Allen, Mr. 
Teufel (pronounced ``Too-ful'') and Mr. Sutherland to this important 
hearing on State and local fusion centers.
    The central role that fusion centers are and should be playing in 
improving information sharing cannot be overstated. The Department must 
work together with its law enforcement, first responders, and private 
sector partners at the State and local levels if we are ever to have 
truly safer homeland. They are often in the best position to know what 
their information needs are what intelligence would be most useful to 
them for figuring out where to spend their resources. That's what 
intelligence is all about: if it can't tell us what to prepare for and 
how, what good is it?
    Fusion centers were launched by State and local leaders themselves 
to get a handle on these and other issued, and I commend your office, 
Mr. Allen, for the ``customer service'' approach it has taken in this 
regard. That approach strikes the right balance between showing respect 
for the hard work that the States and locals already have done with 
fusion centers while at the same time showing how the Department can 
help them going forward.
    But we can't help you help the fusion centers, Mr. Allen, if we 
don't know what you need. I hope you'll be forthcoming about the 
challenges ahead for your State and Local Fusion Center Program given 
the President's Fiscal Year 2008 budget request. I hope you'll also be 
able to give us a sense of where you plan to deploy your resources as 
part of that Program.
    Mississippi is in the process of planning a fusion center, and I 
imagine it could have played a key role in saving lives in the wake of 
Hurricane Katrina. How your Program will help improve situational 
awareness in the Gulf Region is of great interest to me.
    Moreover, I agree wholeheartedly with Ms. Harman that fusion 
centers must keep the faith with the American people. Privacy and civil 
liberties must be a centerpiece of the Department's efforts at State 
and local fusion centers. I hope you'll address what you're already 
doing on this front, and that you'll share your thoughts on how to 
promote a rigorous defense of privacy and civil liberties at these 
centers.
    I encourage you to work closely with Mr. Teufel (pronounced ``Too-
ful'') and Mr. Sutherland about how to incorporate a training regimen 
as part of your efforts. I am certain that they are full of good ideas 
about how to do that.
    Thank you again, and I look forward to your testimony.

                   Additional Questions and Responses

                 Questions from Hon. Bennie G. Thompson

          Responses from Hugo Teufel and Daniel W. Sutherland

    Question 1.: In our efforts to secure the homeland, information 
sharing efforts at State and local fusion centers are becoming 
increasingly important to create the kind of situational awareness that 
is necessary to prevent the next terrorist attack. While we want to 
defeat the terrorists, we don't want to destroy our Constitutional 
rights in the process. I'm very interested in learning more about how 
Mr. Allen's State and Local Fusion Center Program could be a catalyst 
for protecting these rights.
    How might the Privacy Office and Office for Civil Rights and Civil 
Liberties partner to create a privacy and civil liberties curriculum 
that could be taught to staff at State and local fusion centers, and 
what might that curriculum look like?
    To what extent are your offices equipped to provide privacy and 
civil liberties training to Department and other staff at State and 
local fusion centers, and what would such a training program cost in 
your estimation? How long would it take you to put such a training 
program together?
    Answer: Section 222(5)(A) of the Homeland Security Act of 2002 
requires the Chief Privacy Officer to coordinate with the Officer for 
Civil Rights and Civil Liberties on programs, policies and procedures 
involving civil rights and privacy. Currently, in connection with the 
Information Sharing Environment Implementation Plan, the Privacy Office 
and the Office of Civil Rights and Civil Liberties coordinate efforts 
to build appropriate protections for privacy and civil rights into the 
fabric of the Information Sharing Environment. Were Congress to enact 
legislation requiring training for staff of State and local fusion 
centers, I am confident that the Privacy Office and the Office of Civil 
Rights and Civil Liberties could partner to create an effective 
training program.
    With respect to the privacy aspect of such training, the privacy 
curriculum would focus on creating a culture of awareness within fusion 
centers that respects privacy interests of individuals. Such a 
curriculum would introduce the three pillars of federal privacy law: 
the Privacy Act of 1974, the Freedom of Information Act, and the E-
Government of 2002. In addition to federal authorities, the training 
should acknowledge individual state privacy laws that govern the 
operation of fusion centers. The State and local fusion centers are 
creations of the individual States and hence are subject to their own 
statutory and constitutional requirements to protect the rights of 
their citizens.
    The training would include a thorough examination of the Fair 
Information Principles (FIPs) reflected in the Privacy Act with the 
enhancements made by the Privacy Office to encompass the full breadth 
and diversity of the collection, use, dissemination, and maintenance of 
personally identifiable information (PII) at the Department. The 
Privacy Office's Fair Information Principles are Transparency, 
Individual Participation, Purpose Specification, Minimization, Use 
Limitation, Data Quality and Integrity, Security, and Accountability 
and Auditing.
    The curriculum would review how the Privacy Impact Assessment (PIA) 
process applies these FIPs to specific program requirements to aid 
fusion center staff in identifying and mitigating privacy challenges.
    Next, the curriculum would introduce the President's Information 
Sharing Guidelines, which encourages the Federal government to share 
information with State and local partners while respecting and 
protecting privacy. ISE Privacy Guidelines outline the specific process 
for the protection of privacy and other rights. In addition, the 
training would introduce fusion centers to the requirements of 28 CFR 
Part 23, which provides guidance in five primary areas: submission and 
entry of criminal intelligence information, security, inquiry, 
dissemination, and the review-and-purge process. The training would 
encourage fusion center staff to avail themselves of additional 
training offered on this regulation.
    Finally, the training would refer the staff of fusion centers to 
the Fusion Center Guidelines document developed collaboratively by the 
Global Justice Information Sharing Initiative, the Department of 
Justice, and the Department of Homeland Security. These Guidelines are 
intended to ensure that fusion centers are established and operated 
consistently, resulting in enhanced coordination, strengthened 
partnerships, and improved crime-fighting and anti-terrorism 
capabilities. The document offers a comprehensive guide to the 
development and operation of fusion centers, including information on 
privacy and civil liberties protections, and provides useful resources 
and document templates to facilitate implementation. A number of its 
recommendations and resources explicitly address enhancements to 
privacy protections. This is an excellent first step in ensuring fusion 
centers integrate privacy protection into their actions.
    To create a curriculum to embed privacy into the development and 
operations of fusion centers, the Privacy Office would revise and 
augment its existing training modules for Privacy Awareness, Privacy 
Act 101, and Privacy Act 201, the PIA guidance, and the Fusion Center 
Guidelines into an e-learning course specifically addressing the 
privacy issues surrounding a multi-party, multi-jurisdictional fusion 
center. Based on previous privacy course development efforts, the 
Privacy Office estimates that this effort could take six to nine months 
to develop and cost approximately $250,000, which would include course 
development support for the Privacy Office, but would not include the 
resources necessary to deploy the training across existing and 
developing fusion centers.

    Question 2.: I would imagine that some State and local fusion 
centers will be more open to a Department-sponsored privacy and civil 
liberties training program than others. Some may already have similar 
programs in place, while still others simply may not see the value of 
such training.
    What kind of incentives would be helpful, in your view, to 
encourage State and local participation in any privacy and civil 
liberties education program that the Department might offer?
    Answer: The benefits of implementing robust privacy programs into 
fusion centers are manifest. They help ensure public confidence and 
enhance rather than erode fusion center performance. In recognition of 
this, Fusion Center Guideline Number 8 encourages prudent measures to 
foster respect for privacy including adequate training and information 
privacy awareness.
    Although developing specialized training provides efficiencies 
regarding the incorporation of privacy protections into the development 
and operation of fusion centers, the Fusion Center Guideline Number 5 
urges the utilization of memoranda of understanding (MOU) between 
fusion center partners that helps define privacy responsibilities. 
These MOUs could establish requirements for fusion center staff to 
receive periodic privacy training developed in a collaborative 
environment and integrating any training from the Privacy Office.

    Question 2.: Given the increasing public focus on State and local 
fusion centers, what risks may arise if such centers fail to get 
privacy and civil liberties ``right''?
    How might an aggressive privacy and civil liberties training 
program help build public confidence in fusion centers?
    Answer: Getting privacy ``right'' is more than just a compliance 
issue--it is vital to the success of every fusion center. A 
comprehensive privacy policy will help staff understand what 
information they will use and why. This will frame their activities to 
ensure they stay on mission.
    Failure to respect privacy will jeopardize fusion center 
effectiveness and will erode public confidence. The Privacy Office's 
report on the MATRIX program discussed in my March 14 testimony bears 
this out. The information sharing relationship between several states 
in MATRIX failed amid public concern because it lacked a privacy policy 
that clearly articulated the project's purpose, how it would use 
personal information, the types of information covered, and the 
security and auditing safeguards governing the project.
    Any effective training on privacy and civil liberties issues 
requires close coordination between my office and Civil Rights and 
Civil Liberties. That cooperation exists presently.
    We believe privacy training can help fusion centers to avoid the 
fate of MATRIX in two ways. First, it can provide a sound basis for 
understanding general privacy principles through the FIPs and learning 
how to adhere to federal and state privacy laws. In addition, it can 
demonstrate to DHS's fusion center partners the importance the 
Department places in privacy.
    Fusion center training can also help establish public confidence in 
the program. Guideline 3 of the Fusion Center Guidelines addresses 
governance issues and recommends creating a privacy committee to 
interface with community privacy organizations. The completion of 
privacy training for fusion center staff is one of the measures that 
leadership can point to when demonstrating their commitment to 
preserving privacy rights.

    Question 4.: Fusion centers are spreading all over the country, and 
the Departments of Homeland Security and Justice are both offering more 
and more resources to encourage their development.
    In your view, what are the risks to privacy and civil liberties at 
State and local fusion centers, and what resources should the Federal 
Government be offering to fusion centers to avoid those pitfalls?
    Answer: In my answer, I will focus on privacy issues and I defer to 
my colleague, Dan Sutherland, on the civil liberties implications. 
Privacy problems occur when programs like fusion centers do not define 
a solid privacy framework to help adhere to the FIPs. Without a privacy 
framework in place, a fusion center runs the risk of over-collecting 
information, disseminating information too broadly, applying inadequate 
security controls, and encouraging any number of other privacy, and 
civil liberties, problems.
    As I stated in my March 14 testimony and throughout these 
questions, the Fusion Center Guidelines issued by the Global Justice 
Information Sharing Initiative, provide a wealth of information and 
practical resources for establishing and running a fusion center.
    Guideline 3 encourages a governance structure which includes a 
privacy committee; Guideline 5 urges the use of MOUs which include 
privacy policies and responsibilities; Guideline 8 deals entirely with 
privacy and civil liberties; and Guideline 9 provides recommendations 
which help prevent security weaknesses from becoming privacy problems.
    Adherence to these guidelines and development of the training and 
policies they recommend are critical steps in ensuring that the fusion 
centers provide the maximum benefit to the nation, without minimizing 
privacy rights and thus losing the confidence of the public that the 
fusion centers are in business to protect.

    Question 5.: What privacy and civil liberties ``best practices'' 
would you most like to see adopted at State and local fusion centers 
and why?
    How might an ``in-person'' training program offered by the 
Department of Homeland Security at State and local fusion centers 
encourage adherence to these best practices?
    Answer: The Privacy Office believes every fusion center should have 
an official responsible for privacy issues. This official could ensure 
that the best practices described in the Fusion Center Guidelines are 
implemented appropriately and that compliance issues are dealt with in 
a timely manner. Among these best practices are: adherence to the FIPs; 
periodic privacy audits; adequate security controls; and regular 
interaction with the public and privacy advocacy groups.
    In-person training can help define these best practices for fusion 
center staff and refer them to the planning and implementation 
resources available within the Fusion Center Guidelines. Again, I defer 
to my colleague from CRCL on the civil liberties implications.

    Question 6.: There is a lot of mystery surrounding fusion centers. 
Recent press accounts report that some privacy and civil liberties 
advocates fear that they might become domestic intelligence agencies 
that spy on Americans. Others worry that a lack of familiarity with 
privacy and civil liberties laws and regulations raise the risk of 
accidental--but equally damaging--breaches of Constitutional rights.
    What checks are in place at fusion centers that, in your view, 
might help them avoid becoming mini spy agencies, and where might there 
be a need for greater oversight to ensure that abuses don't occur?
    Answer: First and foremost, fusion centers are analytical, not 
operational, entities. They access existing information and analyze it. 
As well, they aid Federal, State, and local entities in finding 
information. Fusion centers do not independently gather information.
    Second, transparency in implementing the FIPs is critical to 
keeping a fusion center focused on its lawfully authorized information 
sharing mission. A public airing of its practices for the collection, 
use, dissemination, and maintenance of personally identifiable 
information will benefit the operation of the fusion center in two 
important ways. It will provide discernable limits on the actions of 
fusion center staff. As well, it will help the public understand the 
important but focused purpose of the fusion center. With this 
understanding they will be less likely to fear the creation of a mini 
spy agency in their midst.
    Third, a fusion center can conduct periodic audits to confirm staff 
is adhering to the purpose and limits originally defined. Moreover, the 
transparency of the initial privacy assessment can be regularly 
buttressed by liaising with members of the local community and 
interested privacy advocacy groups.

    Question 7.: What privacy, civil liberties, and data security 
training do your offices provide to DHS employees being deployed to 
State and local fusion centers, how is that training given, and how 
often are DHS staff required to undergo refresher courses?
    In your view, to what extent is the training that your offices 
provide to DHS employees transferable to State, local, and tribal 
personnel at State and local fusion centers?
    Answer: Currently, every new employee hired by DHS receives an 
introduction to the Privacy Office and the three pillars of federal 
privacy law: the E-Government Act, the Privacy Act, and the Freedom of 
Information Act.
    In addition to the new employee orientation, the Privacy Office has 
developed and distributed an e-learning privacy training course 
entitled ``Privacy Awareness,'' which expands upon the basic concepts 
presented in the orientation to develop an understanding in the 
essentials of the Privacy Act and E-Government Act. This training 
permits DHS employees and contractors to recognize situations in which 
privacy issues arise and how best to mitigate risks to privacy in the 
development and operation of a program. This course is available across 
DHS and has been or will soon be incorporated into the various training 
programs. The Privacy Office is nearing the completion of the 
development of two Privacy Act e-learning courses entitled ``Privacy 
Act 101'' and ``Privacy Act 201.'' The initial one-hour course, 
``Privacy Act 101,'' will provide all employees and contractors with 
the essentials concerning the Privacy Act of 1974, including a basic 
understanding of what is personally identifiable information, what is a 
system of records, when is a System of Records Notice required, how can 
information be collected, used, maintained, or disseminated in 
compliance with the Privacy Act, and other related topics. Further, it 
introduces DHS employees and contractors to the Fair Information 
Principles employed by the Privacy Office. Once all the courses are 
completed, they will be used as annual refresher courses to ensure a 
complete understanding of privacy issues facing the Department.
    As already discussed, with modest changes, these privacy courses 
could form the core of a training curriculum to support fusion center 
staff. They cover federal privacy law as well as the FIPs in detail. 
Adherence to these is critical for fusion centers to accomplish their 
mission without eroding privacy rights.
    Nonetheless, these existing DHS modules are just the beginning. 
Fusion center training, in particular, should add specific references 
to the invaluable Fusion Center Guidelines and, where possible, such 
training should contain information on relevant state privacy law as 
well.
    All personnel employed by or assigned to the Office of Intelligence 
and Analysis (I&A) are required to attend Intelligence Oversight and 
Information Handling on an annual basis. This training is required 
wherever the I&A employed is assigned, to include those working in the 
State and Local Fusion Centers. This Intelligence Oversight and 
Information Handling training addresses the proper handling of 
information which identifies United States (US) persons, such as social 
security numbers. The training emphasizes that I&A personnel must be 
familiar with I&A's mission, and the proper method of collection, 
retention, and dissemination of information about US persons. Part of 
this training includes a review of the history of past abuses of these 
rights.

    Question 8.: What should a model privacy and civil liberties 
education program include as part of its core curriculum?
    What would be the most important thing for law enforcement and 
other staff at fusion centers to know about privacy and civil liberties 
as they do their fusion work?
    Answer: As noted above, the privacy curriculum would focus on 
creating a culture within fusion centers that respects privacy 
interests of individuals. It would begin with an introduction of the 
three pillars of federal privacy law: the Privacy Act of 1974, the 
Freedom of Information Act, and the E-Government of 2002. It would 
include an introduction to the Information Sharing Environment 
Guidelines, including the ISE Privacy Guidelines, as well as to 28 CFR 
Part 23. The training would note that, in addition to these Federal 
laws and regulations, individual state privacy laws may govern the 
operation of individual fusion centers as well.
    The training would include a thorough examination of the FIPs 
including Openness, Individual Participation, Purpose Specification, 
Minimalization, Use Limitation, Data Quality and Integrity, Security, 
and Accountability and Auditing. Additionally, the training would 
demonstrate how DHS uses PIAs to evaluate a program using these FIPs. 
Finally, the training would refer the staff to the Fusion Center 
Guidelines to address fusion center specific issues.
    In addition to this training, law enforcement and other staff at 
fusion centers should understand that adherence to privacy law and 
application of the FIPs is not just a compliance issue. It is the best 
method of assuring information at their disposal is utilized 
effectively. Moreover, a transparent respect for privacy is critical 
for maintaining the confidence of the public they are trying to serve. 
Without this confidence, there is a chance their program will cease to 
exist or not have access to critical citizen-borne information.

    Question 9.: One civil liberties concern at fusion centers involves 
data integrity--how safe is information in fusion center databases from 
being hacked or otherwise accessed by people with no right to it.
    What should a privacy and civil liberties curriculum include to 
address the data integrity issue? What best practices would you 
recommend?
    Answer: While state privacy law will govern the operation of fusion 
centers, the documentation of these procedures in documents similar to 
the Privacy Impact Assessment and System of Records Notice required of 
federal agencies, as well as developing and implementing records 
retention schedules, provides invaluable insight into information 
collection, use, dissemination, and maintenance policies and procedures 
of the fusion center.
    A privacy curriculum would stress that data integrity is a matter 
of primary concern. From a privacy perspective, information assurance 
is crucial for any program deploying information technology handling 
the exchange of data between multiple participants. The Privacy Office 
FIPs include three principles that go to the heart of data integrity: 
Data Quality and Integrity, Security, and Accountability and Auditing.
    The first, Data Quality and Integrity, looks to ensure that 
personally identifiable information is accurate, complete and kept up-
to-date. Under this principle, the fusion center training would 
encourage regular review of personally identifiable information to 
ensure it remains relevant and necessary to the purposes of the program 
or an investigation. Once personally identifiable information is no 
longer relevant and necessary, the information should be purged from 
the supporting systems. To accomplish these goals, fusion centers 
should have standard operating procedures outlining how to review 
information for relevant and necessary standards. These procedures 
should be documented in the Privacy Impact Assessment and System of 
Records Notice as well as developing and implementing records retention 
schedules.
    The second principle, Security, looks to protect personally 
identifiable information through reasonable security safeguards against 
risks such as loss or unauthorized access, destruction, use, 
modification or disclosure. This principle is implemented through 
appropriate information security controls, such as required through the 
Certification and Accreditation process outlined by the Federal 
Information Security Management Act (FISMA) and the DHS Chief 
Information Security Officer (CISO).
    The third principle of this list, Accountability and Auditing, 
looks to hold the fusion center and its participants accountable for 
complying with measures which give effect to all the principles. The 
fusion center should develop mechanisms to ensure ongoing compliance 
with these fair information principles. Technology should support the 
ability to perform appropriate audits to measure up operational metric 
with privacy protections. Further, for information from federal 
partners, DHS should provide appropriate training to all employees and 
contractors that handle personally identifiable information.

    Question 10.: If both your offices work together, how long would it 
take you to develop a privacy and civil liberties training program, and 
what steps have you considered already for establishing and 
implementing such a program?
    What kind of resources will your offices need to help you establish 
and implement a fusion center-oriented privacy and civil liberties 
training program in a timely fashion?
    Answer: At present, the office has sufficient appropriations only 
to carry out its presently-assigned mission. As I have detailed 
earlier, the Privacy Office training courses, including Privacy 
Awareness, Privacy Act 101, and Privacy Act 201; the DHS Privacy Impact 
Assessment Guidance; and the Global Fusion Center Guidelines would 
serve as the basis for any training created for fusion centers. It 
would take between six and nine months to accomplish this.
    While the manner of training delivery is yet to be determined, one 
scenario for properly deploying a fully-functional privacy training 
program to federal participants and fusion center operators in a timely 
manner will require funding for both personnel and development support. 
Having a team from the Privacy Office dedicated to providing training 
to fusion centers is the first step. Optimally, hiring or contracting 
for a fusion center privacy training coordinator and an appropriate 
number of trainers to go out to the fusion centers and provide ongoing 
instruction in privacy issues would provide the quickest and most 
effective approach to ensuring privacy protections in the deployment 
and operation of fusion centers.
    In addition to training resources, privacy resource support will be 
necessary to ensure that the training received by fusion center 
participants is properly employed through the development of privacy 
policies and compliance programs at the individual centers. Dedicating 
personnel at the Privacy Office to support this effort would ensure 
uniformity throughout the various fusion centers in the application of 
the FIPs to protect privacy. I anticipate that we would need an 
additional compliance specialist within the Privacy Office.

                  Responses from Daniel W. Sutherland

    Question 11.: In your view, Mr. Sutherland, would it be appropriate 
for DHS to offer a standardized privacy and civil liberties training 
program to State and local fusion centers where DHS has a presence?
    What benefits might derive from such a standardized approach? To 
what extent would a fusion center-oriented privacy and civil liberties 
training program need to vary from State to State according to the 
needs of each location?
    Answer: In my answer and in responses to subsequent Questions for 
the Record, I will focus on Civil Rights and Civil Liberties aspects, 
and defer to my colleague, Hugo Teufel on the privacy implications.
    First let me state that it is important to remember that fusion 
centers were created and are run by State and local officials and not 
the Federal government. Yes, CRCL could offer a standardized program 
detailing the framework within which all fusion centers with a DHS 
presence should operate. Such a standard program would likely cover 
only those systems, approaches, policies and missions that are nearly 
universal for fusion centers. A standard program would help create a 
baseline expectation for what knowledge all personnel should have in 
order to conduct their work in fusion centers. This would be a 
voluntary program for non-DHS employees not connected to a DHS program 
or grant.
    Variation would depend on many factors including the type of 
information shared, the variety of systems and architecture used to 
control and share information, the level of cooperation, the volume of 
work to be conducted and the track record of individual fusion centers.

    Question 12.: Mr. Sutherland, if you were to develop a privacy and 
civil liberties curriculum for State and local fusion centers, what 
procedures would you have in place to make certain that racial 
profiling does not exist within the fusion center context and how will 
you address racial profiling in the training program?
    Answer: In June of 2004, the Department issued a memo to all staff 
describing its policy on racial profiling, and adopting the latest 
Department of Justice policy on profiling, itself issued in June of 
2003. CRCL has created training on racial profiling that is at least 
applicable to Federal activities undertaken using information obtained 
and shared through fusion centers, if not to the activities of State 
and local law enforcement entities themselves.
    Training fusion centers on racial profiling would provide an 
opportunity to offset some of the risks associated with information 
overload. Large quantities of raw information provided to State and 
local agencies without analysis or assurance of reliability can lead to 
assumptions that may be at odds with equal protection standards and, in 
the extreme, result in racial and ethnic profiling. Fusion centers, 
through their approach to cooperative analysis, can provide information 
that is reliable and concrete enough to eliminate the uncertainty that 
can lead to racial and ethnic profiling. Further, basic cultural 
competence training can better enable fusion center partners to, in 
turn, equip their personnel with knowledge that will help them do their 
jobs in a manner that shows respect to, and earns the respect of, the 
communities they protect and serve.

    Question 13.: Mr. Sutherland, how would you ensure that your office 
continues to serve as a resource to fusion center personnel after any 
privacy and civil liberties training you provide is complete?
    Answer: We will ensure that CRCL continues to serve as a resource 
to fusion center personnel by being responsive to follow-up questions 
and by establishing ongoing dialogue with fusion center personnel. We 
will work with DHS I&A, the DHS information Sharing Coordinating 
Council and Governance Board, the Information Sharing Environment 
Program Manager and others involved in the information sharing 
environment to voice civil rights and civil liberties concerns at all 
stages of Federal planning and policy making related to fusion centers. 
Where appropriate, we will continue to serve as a resource by making 
our training material available to criminal justice programs and other 
institutions that provide training to fusion center personnel. The 
Office for Civil Rights and Civil Liberties will use its available 
resources to provide assistance to fusion centers across the country so 
that they can fulfill their mission at the highest level of 
effectiveness.

    Question 14.: Notwithstanding the support provided to the fusion 
centers from your office, Mr. Sutherland, would you support fusion 
centers having an individual on-site to provide on-the-spot civil 
rights and civil liberties advice to employees when circumstances 
warrant?
    Why or why not? How might your office encourage that fusion centers 
have such a person on staff?
    Answer: Depending on the size and mandate or mission of the fusion 
center it may or may not be useful to have an individual on-call or on-
site to provide immediate civil rights and civil liberties advice. A 
large, regional fusion center with scores of government partners will 
likely have more circumstances that warrant daily seeking expert civil 
rights and civil liberties advice. Even in such instances there is a 
great deal that could be accomplished using secure networks in an on-
call approach.
    The Office for Civil Rights and Civil Liberties is one of the 
smallest such offices in the federal government. For sake of 
comparison, the Department of Justice's Civil Rights Division has 
approximately 800 employees and the Department of Education's Office 
for Civil Rights has approximately 600 employees. Because of the size 
of its workforce, for example, the Department of Education is able to 
staff regional offices around the country. The Office for Civil Rights 
and Civil Liberties has approximately forty full-time employees. Given 
this, we recognize that we must spread our influence through innovative 
projects such as Civil Liberties University, our training vehicle. We 
continue to look for ways to share our expertise with our colleagues 
around the country.

    Question 15.: Mr. Sutherland, I'm aware that your office has 
prepared training courses for DHS staff that is available on CD-Roms 
and other media. For purposes of a fusion center-oriented privacy and 
civil liberties training program, what portion of the training should 
be ``in person'' versus on CD-Roms or other media?
    What role could community outreach from fusion centers play in 
reinforcing the privacy and civil liberties lessons you might teach?
    Answer: Again, I will focus on Civil Rights and Civil Liberties 
issues and I defer to my colleague, Hugo Teufel on the privacy 
implications.
    As much as possible, a standardized tool should be used in order to 
save resources and ensure widespread access to the training. Where 
circumstances warrant ``in person'' training, CRCL, working with our 
partners in the Privacy Office, will be able to provide such training 
and may be able to tailor it to specific fusion centers, depending on 
the circumstances on individual fusion centers and assuming sufficient 
resources are available. Effective training is ordinarily developed in 
response to various types of needs analysis, and any training provided 
under such a program should be designed in the method most likely to 
ensure effective delivery of the curriculum.
    I would encourage Fusion centers to actively engage communities to 
ensure widespread understanding of their mission, capabilities, and 
their efforts to ensure privacy and civil liberties principles are 
respected. Disclosure of the privacy and civil liberties guidelines, 
policies and training will help to create community support. Affording 
the public ample opportunities to express concerns and raise questions 
will foster trust that leads to cooperation in the activities 
undertaken by all fusion center partners.

                       Responses from Hugo Teufel

    Question 11.: Mr. Teufel, some states have applied for exemptions 
from the Privacy Act to expand the amount of information they can 
collect and retain at fusion centers.
    What concerns does this raise for you, and how do we go about 
ensuring that fusion centers do not eviscerate the Privacy Act?
    Answer: The Privacy Act of 1974 applies only to federal agencies; 
it does not govern the actions of the states in connection with fusion 
centers. Nonetheless, although the Privacy Act of 1974 permits Federal 
agencies to control access to information held in a Privacy Act System 
of Records (SOR), such exemptions do not remove all of the requirements 
of the Privacy Act. Typically, Federal agencies will promulgate a rule 
to exempt a particular SOR from certain sections of the Privacy Act.
    Federal agencies need these exemptions in order to protect 
information relating to law enforcement investigations from disclosure 
to subjects of investigations and others who could interfere with 
investigatory and law enforcement activities. Specifically, the 
exemptions are required to preclude subjects of investigations from 
frustrating the investigative process; to avoid disclosure of 
investigative techniques; to protect the identities and physical safety 
of confidential informants and of law enforcement personnel; to ensure 
Federal agencies? ability to obtain information from third parties and 
other sources; to protect the privacy of third parties; and to 
safeguard sensitive information.
    Importantly, the exemption process does not allow Federal agencies 
to keep a ``secret'' collection of information, to share personal 
information in an indiscriminate manner, to fail disclosure of the 
reasons for collecting the information, or to establish appropriate 
administrative, technical, and physical safeguards to insure the 
security and confidentiality of records.
    As I have stressed in my March 14 testimony and in other answers 
here, the Privacy Office believes this is more than an issue of 
compliance. Programs that do not clearly define and understand their 
collection, use, dissemination and maintenance of PII, cannot 
effectively perform their jobs. In addition, failure to protect PII 
would imperil the public's support for their efforts.
    As such, to the extent that DHS shares information with fusion 
centers, the fair information principles apply to these exchanges and 
help determine the controls for the application of any exemptions 
appropriately taken under the Privacy Act to prevent erosion of privacy 
protections.

    Question 12.: Mr. Teufel, your office conducts regular Privacy 
Impact Assessments to ensure that DHS programs comply with the Privacy 
Act and other laws.
    As part of any privacy and civil liberties training that your 
office might offer at fusion centers, how would you go about training 
fusion center personnel about how to conduct a privacy impact 
assessment?
    With adequate resources, would the DHS Privacy Office itself be in 
a position to conduct Privacy Impact Assessments at fusion centers?
    Answer: The Privacy Office has issued Privacy Impact Assessment 
Guidance, which DHS programs use to draft their own PIAs. Programs must 
evaluate their collection, use, dissemination, and maintenance of PII, 
using the eight FIPs.
    This guidance would help fusion center leadership and staff to 
understand the PIA process. In fact, with some slight modifications 
this guidance is ready for fusion center audiences, since the privacy 
issues to be examined focus on the FIPs and the collection, use, 
dissemination, and maintenance of personally identifiable information, 
rather than the entity doing the PIA. Moreover, since the Privacy 
Office posts every PIA that is approved on the DHS website, fusion 
center staff have examples from which to work.
    The Privacy Office believes PIAs are most useful to the program 
when the program staff is heavily engaged in drafting the PIA; with 
adequate resources, however, the Privacy Office could assist the fusion 
centers in drafting their PIAs.

    Question 13.: In your view, Mr. Teufel, what is the value of having 
a Privacy and Civil Liberties Officer within an organization, and how 
might such an officer have a positive impact at a State or local fusion 
center?
    What role could a Privacy and Civil Liberties Officer at a fusion 
center play in terms of educating the public about the fusion center's 
purpose and processes?
    Answer: The designation of an official with privacy, or privacy and 
civil liberties responsibilities, within each fusion center is one of 
the best practices I identified above. As the fusion center guidelines 
recommend, I believe this Privacy Officer should be in place early in 
the process of the fusion center's formation. This is the best 
opportunity to ensure the rest of the recommendations from the fusion 
center guidelines are implemented. And the fusion center Privacy 
Officer would be responsible for drafting any PIAs and ensuring that 
the FIPs are faithfully preserved.
    Fusion Center Guideline Number 3 recommends each fusion center have 
a privacy committee as part of it governance structure. This group 
would be lead by the Privacy Officer. One of the enumerated 
responsibilities of this committee is to provide outreach activities 
with the community and interested privacy advocacy groups. I believe 
this outreach is critical. Public airing of privacy issues is an 
important step in ensuring transparency, one of the FIPs. Moreover, if 
the fusion center has implemented all of the FIPs, the Privacy 
Officer's interaction with the public can help maintain support for 
their activities.

    Question 14.: Mr. Teufel, there is concern among some privacy 
advocates about the length of time that information that is not related 
to an investigation remains in a fusion center database.
    What are the dangers of not destroying irrelevant information with 
a prescribed period of time, and how might privacy and civil liberties 
education at fusion centers address this area of concern?
    Answer: Minimalization is the fourth FIP utilized by DHS. This 
principle includes a prescription that information must be directly 
relevant and necessary to accomplish the specific purposes of the 
programs and information must be retained only for as long as it is 
necessary and relevant to fulfill the specified purpose for its 
collection. Obviously, fusion centers need relevant information--and 
only relevant information--to fulfill there mission. Accessing 
irrelevant and untimely information can only hamper the performance of 
the hardworking fusion center staff. Such over-collection of 
information can erode the public's confidence and increase the cost of 
a security breach with no offsetting benefit to the program.
    Privacy training can reinforce the importance of the FIPs. Applying 
this fourth principle of Minimalization, the fusion center can create 
criteria for judging the initial relevancy of information and for 
determining continued relevancy over time. This analysis will aid the 
fusion center's regular purging of information that, by definition, 
cannot assist them in performing their important mission.

                                 <all>

</pre></body></html>
